                                                                                                                 Office of Inspector General
(/".~ DEPARTMENT OF HEALTH"" HUMA SERVICES

,-.:: MAY 3 20
                                                                                                  Washington, D.G. 20201




         TO:	                          Edwin L. Walker
                                       Deputy Assistant Secretar for Policy and Programs
                                       Administration on Agin~g .
         FROM:                         Stuar E. ~ight
                                                        ~a. £l(
                                       Deputy Inspector General
                                         for Evaluation and Inspections

         SUBJECT:	                     Performance Data for the Senior Medicare Patrol Projects:
                                       April 2007 Performance Report, OEI-02-07-00360


         The Office ofInspector General (OIG) has collected performance data from the Senior
         Medicare Patrol Projects since 1997. In December 2005, the Administration on Aging
         (AoA) requested that OIG continue to collect and report on the performance data for the
         Senior Medicare Patrol Projects to support AoA's efforts to evaluate and improve the
         performance ofthese projects. The Senior Medicare Patrol Projects receive grants from AoA
         to recruit retired professionals to serve as educators and resources in assisting beneficiaries to
         detect and report fraud, waste, and abuse in the Medicare program. At least one project is
         located in each of the 50 States, as well as in the District of Columbia, Puerto Rico, Guam,
         and the Virgin Islands.

         In 2006, a total of65 projects educated 411,458 beneficiaries in 210,780 group training
         sessions and one-on-one sessions. As a result of educating beneficiaries, the projects
         received 11,830 complaints, of 
 which 4,123 were referred to Medicare contractors for
         followup. A total of2,501 complaints resulted in $110,592 recouped to the Medicare

         program. The projects also reported $589,288 in savings to beneficiaries. For many of 	  these
         cases, the projects provided descriptions or documentation indicating that beneficiaries were
         charged inaccurate copayments, deductibles, or premiums for prescription drugs covered
         under the Medicare Part D benefit.

         Since the inception of              the program 10 years ago, a total of72 projects (15 of                   which closed
         between June 2002 and June 2006) have educated approximately 2.9 million beneficiaries in
         906,414 group training sessions and one-on-one sessions. As a result of educating
         beneficiaries, the projects received 86,879 complaints, of                                 which 14,634 resulted in some
         action. Total savings to the Medicare program attributable to the projects were $4,198,013.
         Self-reported savings to beneficiaries, Medicaid, and other payers were approximately
Page 2 – Edwin L. Walker

$101 million. Most of the $101 million in savings is the result of one project’s involvement
in adjustments to Medicaid claims for individuals entitled to both Medicaid and Medicare.
The appendixes contain more information on the performance of each project.

We continue to emphasize that the number of beneficiaries who have learned from the Senior
Medicare Patrol Projects to detect fraud, waste, and abuse, and who subsequently call the
OIG fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be
receiving full credit for savings attributable to their work. In addition, substantial savings,
which cannot be tracked, may be derived from a sentinel effect whereby fraud and errors are
reduced in light of Medicare beneficiaries’ scrutiny of their bills.

In 2001, the Centers for Medicare & Medicaid Services (CMS) developed a tracking system
that requires each contractor to provide semiannual reports of all complaints initiated by the
Senior Medicare Patrol Projects. We asked each project director to submit all tracking
reports and correspondence they received from a Medicare contractor, regardless of whether
actual savings occurred. In 2006, 17 of the 65 projects submitted a total of 36 forms of
documentation. Sixteen of the seventeen projects submitted at least one tracking system
report. Fifteen of the tracking reports documented actual savings to the Medicare program.

As agreed with AoA, we will continue to monitor the projects and will provide you with
summary reports of performance data on an annual basis. If you or your staff have any
questions or require additional information, please contact me at (202) 619-0480 or Jodi
Nudelman, Regional Inspector General for the Office of Evaluation and Inspections in
New York at (212) 264-2779. To facilitate identification, please refer to report number
OEI-02-07-00360 in all correspondence.


ATTACHMENTS:
Appendix A - Summary of Performance for All Projects Since 1997
Appendix B - Summary of Performance for All Projects for 2006
Appendix C - Projects’ Results for Each Performance Measure for 2006
Appendix D - Individual Project Results for 2006
    Senior Medicare Patrol Projects’ Performance Measure Results 




List of Appendixes

Appendix A: Summary of Performance for All Projects Since 1997………………………………...4 


Appendix B: Summary of Performance for All Projects for 2006………………………….……......6 


Appendix C: Projects’ Results for Each Performance Measure for 2006……………...…………….8 


Appendix D: Individual Project Results for 2006………………………………………………..…. 26





                                                                                       3
   Δ        A P P E N D I X               ~     A


                          Summary of Performance for All Projects Since 1997
The following table provides the overall performance measure results for all 72 projects that have operated since 1997. 


Cumulative totals since 1997 are no longer reported for Performance Measure 9. 


Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, the following table does 

not contain data for performance measures 15A, 15B, and 15C.





                                                                                                                                 4
A P P E N D    I X       ~     A 



                                Summary of Performance for All Projects Since 1997
                                            OUTPUT MEASURES

    1       Number of training sessions conducted to train new volunteers                          10,935
    2       Number of new volunteers trained                                                       68,008
    3       Number of media events conducted                                                      158,708
    4       Number of community education events conducted                                         48,988
                                           OUTCOME MEASURES
            Number of volunteers who, for the first time, conducted activities to educate
    5       beneficiaries                                                                          24,376
    6       Number of group sessions for beneficiaries led by volunteers                           54,035
    7       Number of beneficiaries who attended group sessions led by volunteers                2,035,722
    8       Number of one-on-one sessions held between beneficiaries and volunteers               852,379
   7+8      Total number of beneficiaries educated                                               2,886,700
    9       Estimated number of people reached by media events                                         NA
    10      Estimated number of people reached by community education events                    18,180,128
    11      Number of complaints received attributable to the project                              86,879
    12      Number of complaints referred for followup                                             14,634
    13      Number of complaints that resulted in some action                                        7,617
    14      Medicare funds recovered attributable to the project                                $4,198,013
   15A      Medicaid funds recovered attributable to the project                                       NA
   15B      Savings to beneficiaries attributable to the project                                       NA
   15C      Other savings attributable to the project                                                  NA
 TOTAL 15   Total Medicaid funds, beneficiary savings, and other savings                    $101,005,179
  14 + 15   Total savings attributable to the project                                       $105,203,192




                                                                                            5
   Δ       A AP PP PE EN ND DI IX X ~ ~ B
                                        C B


                            Summary of Performance for All Projects for 2006
The following table provides data for the 65 projects that operated in 2006. The table provides the performance measure results for
the two 6-month reporting periods.

Eight projects closed in June 2006. These include Tribal Council of Arizona, DH/Perfil Latino TV Inc., Oregon Multnomah County
Aging and Disability Services, Texas Latino Education Project, Virginia Boat People SOS, Inc., Washington Multi-Service Center,
Wisconsin Great Lakes Inter-Tribal Council, and Monroe County Opportunity.

Additionally, Alabama Department of Senior Services began operation in July 2006.




                                                                                                                               6
A P P E N D       I X      ~     B 




                                  Summary of Performance for All Projects for 2006
                                                                                           January - June    July - December   Total for 2006
                                        OUTPUT MEASURES

   1       Number of training sessions conducted to train new volunteers                               902               868               1,770
   2       Number of new volunteers trained                                                          5,675             3,860               9,535
   3       Number of media events conducted                                                          5,660             3,512               9,172
   4       Number of community education events conducted                                            4,399             4,495               8,894
                                      OUTCOME MEASURES

   5       Number of volunteers who, for the first time, conducted activities to educate
           beneficiaries                                                                             1,342               786               2,128
    6      Number of group sessions for beneficiaries led by volunteers                              3,502             2,715               6,217
    7      Number of beneficiaries who attended group sessions led by volunteers                   114,676            92,219             206,895
    8      Number of one-on-one sessions held between beneficiaries and volunteers                 113,519            91,044             204,563
  7+8      Total number of beneficiaries educated                                                  228,195           183,263             411,458
    9      Estimated number of people reached by media events                                   52,354,629        58,376,117         110,730,746
   10      Estimated number of people reached by community education events                      1,155,374           658,482           1,813,856
   11      Number of complaints received attributable to the project                                 6,403             5,427              11,830
   12      Number of complaints referred for followup                                                2,319             1,804               4,123
   13      Number of complaints that resulted in some action                                           920             1,581               2,501
   14      Medicare funds recovered attributable to the project                                    $53,035           $57,557           $110,592
  15A      Medicaid funds recovered attributable to the project                                     $1,562               $61              $1,623
  15B      Savings to beneficiaries attributable to the project                                  $218,687          $370,602            $589,288
  15C      Other savings attributable to the project                                                    $0              $172                $172
TOTAL 15   Total Medicaid funds, beneficiary savings, and other savings                          $220,249          $370,835            $588,854
 14 + 15   Total savings attributable to the project                                             $273,284          $428,392            $701,676




                                                                                                                                 7
   Δ       A P P E N D I X               ~     C


                      Projects’ Results for Each Performance Measure for 2006
The following tables provide the results for each performance measure for each of the 65 Senior Medicare Patrol Projects operating
in 2006. Each table provides the performance measure results for the two 6-month reporting periods.

Please note that Performance Measure 9, “Estimated Number of People Reached by Media Events,” is calculated by adding the
average number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.

Eight projects closed in June 2006. These include Tribal Council of Arizona, DH/Perfil Latino TV Inc., Oregon Multnomah County
Aging and Disability Services, Texas Latino Education Project, Virginia Boat People SOS, Inc., Washington Multi-Service Center,
Wisconsin Great Lakes Inter-Tribal Council, and Monroe County Opportunity.

Additionally, Alabama Department of Senior Services began operation in July 2006.




                                                                                                                              8
A P P E N D        I X        ~   C 



                     PERFORMANCE MEASURE 1: Number of Training Sessions Conducted to Train New Volunteers
                                  Jan. – June     July – Dec.   Total for 2006                           Jan. – June   July – Dec.    Total for 2006
Alabama                                     NA             20                20   Nevada                           0             0                  0
Alaska                                      21              9                30   New Hampshire                    3             1                  4
Arizona - DES                               15             36                51   New Jersey - JFVS                3             1                  4
Arizona - ITZA                                1            NA                 1   New Jersey - DHP                 6            NA                  6
Arkansas                                      8             7                15   New Mexico                      30            42                 72
California                                  24              2                26   New York                        67            45                112
Colorado                                      4             4                 8   North Carolina - DOI             5             5                 10
Connecticut                                   7             5                12   North Dakota                     2             0                  2
Delaware                                      0             3                 3   Ohio - PSI                       1             1                  2
District of Columbia - AARP                   1             0                 1   Oklahoma                         0             5                  5
District of Columbia - FH                     6             2                 8   Oregon - SMP                     0            67                 67
Florida                                       9             7                16   Oregon - MCADS                  79            NA                 79
Georgia - ARC                                 1             1                 2   Pennsylvania                     3             3                  6
Georgia - DHR                               26              4                30   Puerto Rico                      0             6                  6
Guam                                          0             1                 1   Rhode Island                     0             9                  9
Hawaii                                        3             5                 8   South Carolina                  12             2                 14
Idaho                                       84              4                88   South Dakota                     1             3                  4
Illinois                                    15              2                17   Tennessee                       21            15                 36
Indiana                                     11              2                13   Texas - BBBEF                    5             0                  5
Iowa                                        16             53                69   Texas - NHCOA                   48            38                 86
Kansas                                        4             5                 9   Texas - LEP                      2            NA                  2
Kentucky                                      9           211               220   Utah                            17            25                 42
Louisiana                                     2             3                 5   Vermont                          0             0                  0
Maine                                       29             24                53   Virginia - AAA                   3             0                  3
Maryland                                    28             57                85   Virginia - BPSOS                 8            NA                  8
Massachusetts                                 5             5                10   Virgin Islands                   2             1                  3
Michigan - AAA                                2            20                22   Washington - IC                  4            50                 54
Michigan - MCOP                             31             NA                31   Washington - MSC               186            NA                186
Minnesota                                     9            21                30   West Virginia - AARP             3             3                  6
Mississippi                                   7             2                 9   Wisconsin - CWAG                 6             4                 10
Missouri                                      3             2                 5   Wisconsin - GLITC                2            NA                  2
Montana                                       0            13                13   Wyoming                          0             2                  2
Nebraska                                      2            10                12

                                                                                                                                     9

A P P E N D        I X        ~    C 



                                         PERFORMANCE MEASURE 2: Number of New Volunteers Trained
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June    July – Dec.       Total for 2006
Alabama                                     NA            121                121   Nevada                            0              0                   0
Alaska                                      51              23                74   New Hampshire                    56              6                  62
Arizona - DES                               12              48                60   New Jersey - JFVS                20              6                  26
Arizona - ITZA                              20             NA                 20   New Jersey - DHP                  4             NA                   4
Arkansas                                    43              36                79   New Mexico                       86             10                  96
California                                 321              24               345   New York                      1,592          1,404               2,996
Colorado                                    26              22                48   North Carolina - DOI             17             55                  72
Connecticut                                 61            131                192   North Dakota                     55              0                  55
Delaware                                     0              11                11   Ohio - PSI                        7              3                  10
District of Columbia - AARP                  6               0                 6   Oklahoma                          0             55                  55
District of Columbia - FH                    2               3                 5   Oregon - SMP                      0            332                 332
Florida                                     22              90               112   Oregon - MCADS                  582             NA                 582
Georgia - ARC                                4               3                 7   Pennsylvania                      4              2                   6
Georgia - DHR                              108              13               121   Puerto Rico                       3              3                   6
Guam                                         0              10                10   Rhode Island                      0             46                  46
Hawaii                                     575              80               655   South Carolina                   73              6                  79
Idaho                                       50               4                54   South Dakota                      9             25                  34
Illinois                                    97               3               100   Tennessee                        99            122                 221
Indiana                                     73               2                75   Texas - BBBEF                    12              0                  12
Iowa                                        16            172                188   Texas - NHCOA                   131            146                 277
Kansas                                     143            114                257   Texas - LEP                       5             NA                   5
Kentucky                                    25              16                41   Utah                             29             27                  56
Louisiana                                   39              75               114   Vermont                           0              0                   0
Maine                                       44              24                68   Virginia - AAA                    4             22                  26
Maryland                                   561              30               591   Virginia - BPSOS                 15             NA                  15
Massachusetts                               75              60               135   Virgin Islands                   18              4                  22
Michigan - AAA                              22              57                79   Washington - IC                  50             79                 129
Michigan - MCOP                             63             NA                 63   Washington - MSC                 81             NA                  81
Minnesota                                   91            182                273   West Virginia - AARP              4              4                   8
Mississippi                                 34               3                37   Wisconsin - CWAG                 57             22                  79
Missouri                                    24               9                33   Wisconsin - GLITC                42             NA                  42
Montana                                      0              36                36   Wyoming                           0             16                  16
Nebraska                                    12              63                75

                                                                                                                                        10 

A P P E N D        I X        ~     C 



                                          PERFORMANCE MEASURE 3: Number of Media Events Conducted
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June    July – Dec.     Total for 2006
Alabama                                    NA              60                60   Nevada                           15              4                19
Alaska                                      2              48                50   New Hampshire                    36              9                45
Arizona - DES                               3               2                 5   New Jersey - JFVS                18             22                40
Arizona - ITZA                              1             NA                  1   New Jersey - DHP                 10             NA                10
Arkansas                                   54              21                75   New Mexico                       15             14                29
California                                 32              34                66   New York                         10              3                13
Colorado                                    2               7                 9   North Carolina - DOI              7             20                27
Connecticut                                57              33                90   North Dakota                     19              1                20
Delaware                                   54               7                61   Ohio - PSI                      190             71               261
District of Columbia - AARP                 1               1                 2   Oklahoma                          2              2                 4
District of Columbia - FH                   2               3                 5   Oregon - SMP                     11             49                60
Florida                                    19              13                32   Oregon - MCADS                   11             NA                11
Georgia - ARC                              14               9                23   Pennsylvania                      5              5                10
Georgia - DHR                              58              77               135   Puerto Rico                       3              2                 5
Guam                                        6               6                12   Rhode Island                      0              7                 7
Hawaii                                      7               5                12   South Carolina                   44             49                93
Idaho                                      12               4                16   South Dakota                     26             26                52
Illinois                                   41              34                75   Tennessee                       153             56               209
Indiana                                    51              16                67   Texas - BBBEF                    10              2                12
Iowa                                      554            455              1,009   Texas - NHCOA                    49             10                59
Kansas                                      3               6                 9   Texas - LEP                      12             NA                12
Kentucky                                  229            116                345   Utah                            516             41               557
Louisiana                                  19              21                40   Vermont                       1,141             14             1,155
Maine                                      83            182                265   Virginia - AAA                   14             14                28
Maryland                                   93            106                199   Virginia - BPSOS                  1             NA                 1
Massachusetts                             170            150                320   Virgin Islands                  402              8               410
Michigan - AAA                              2               5                 7   Washington - IC                   4             84                88
Michigan - MCOP                             2             NA                  2   Washington - MSC                 89             NA                89
Minnesota                                   3               3                 6   West Virginia - AARP             36            131               167
Mississippi                               711              12               723   Wisconsin - CWAG                330          1,212             1,542
Missouri                                   12               4                16   Wisconsin - GLITC                10             NA                10
Montana                                   134            149                283   Wyoming                          14             12                26
Nebraska                                   26              55                81

                                                                                                                                       11

A P P E N D        I X        ~     C 



                              PERFORMANCE MEASURE 4: Number of Community Education Events Conducted
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.      Total for 2006
Alabama                                    NA            251                251   Nevada                          35             28                 63
Alaska                                      6               2                 8   New Hampshire                   13             18                 31
Arizona - DES                              16              23                39   New Jersey - JFVS               58             60                118
Arizona - ITZA                             29             NA                 29   New Jersey - DHP                18             NA                 18
Arkansas                                   92              31               123   New Mexico                      51            149                200
California                                122              12               134   New York                        66             30                 96
Colorado                                    3               4                 7   North Carolina - DOI           133             43                176
Connecticut                               245              72               317   North Dakota                     8               2                10
Delaware                                   13              28                41   Ohio - PSI                      19               5                24
District of Columbia - AARP                 6               4                10   Oklahoma                        13             17                 30
District of Columbia - FH                   6               5                11   Oregon - SMP                    53             58                111
Florida                                   117              76               193   Oregon - MCADS                 244             NA                244
Georgia - ARC                              72              85               157   Pennsylvania                    14             40                 54
Georgia - DHR                             233            179                412   Puerto Rico                     13             65                 78
Guam                                       36              50                86   Rhode Island                     0             92                 92
Hawaii                                     11              29                40   South Carolina                  95             29                124
Idaho                                      14            107                121   South Dakota                    39             32                 71
Illinois                                    2            372                374   Tennessee                      170            170                340
Indiana                                    90              82               172   Texas - BBBEF                   80             58                138
Iowa                                      122              82               204   Texas - NHCOA                   19            157                176
Kansas                                     14              19                33   Texas - LEP                      2             NA                  2
Kentucky                                   28              39                67   Utah                            93            952              1,045
Louisiana                                  12              19                31   Vermont                         32             11                 43
Maine                                      80              43               123   Virginia - AAA                 248            196                444
Maryland                                   32              57                89   Virginia - BPSOS                 5             NA                  5
Massachusetts                             323              20               343   Virgin Islands                   5               3                 8
Michigan - AAA                             20              65                85   Washington - IC                  8            121                129
Michigan - MCOP                            58             NA                 58   Washington - MSC               536             NA                536
Minnesota                                  11              48                59   West Virginia - AARP            31             35                 66
Mississippi                                47              40                87   Wisconsin - CWAG                65             10                 75
Missouri                                   28              42                70   Wisconsin- GLITC                25             NA                 25
Montana                                    91              45               136   Wyoming                         13             23                 36
Nebraska                                  216            160                376

                                                                                                                                       12 

A P P E N D        I X        ~     C 



   PERFORMANCE MEASURE 5: Number of Volunteers Who, for the First Time, Conducted Activities to Educate Beneficiaries
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.     Total for 2006
Alabama                                    NA              65                65   Nevada                           0             0                  0
Alaska                                     39              23                62   New Hampshire                   43            33                 76
Arizona - DES                              12               4                16   New Jersey - JFVS                6             4                 10
Arizona - ITZA                             15             NA                 15   New Jersey - DHP                 3            NA                  3
Arkansas                                   19              15                34   New Mexico                      86            10                 96
California                                  5               6                11   New York                        20            34                 54
Colorado                                    0               4                 4   North Carolina - DOI             7             4                 11
Connecticut                                11              28                39   North Dakota                     0             0                  0
Delaware                                    2               9                11   Ohio - PSI                       0             1                  1
District of Columbia - AARP                 3               2                 5   Oklahoma                         3             3                  6
District of Columbia - FH                   2               2                 4   Oregon- SMP                     12            99                111
Florida                                    14              15                29   Oregon - MCADS                 434            NA                434
Georgia - ARC                               4               3                 7   Pennsylvania                     2             2                  4
Georgia - DHR                              36              13                49   Puerto Rico                      0             3                  3
Guam                                        1               1                 2   Rhode Island                     0            44                 44
Hawaii                                      0               3                 3   South Carolina                  19             1                 20
Idaho                                      33               4                37   South Dakota                    24             7                 31
Illinois                                    7               5                12   Tennessee                        9            73                 82
Indiana                                    65               2                67   Texas - BBBEF                   10             0                 10
Iowa                                       10               7                17   Texas - NHCOA                    0             4                  4
Kansas                                      0               0                 0   Texas - LEP                      4            NA                  4
Kentucky                                   18              15                33   Utah                            11            45                 56
Louisiana                                   9               7                16   Vermont                          0             0                  0
Maine                                      13               9                22   Virginia - AAA                   0            10                 10
Maryland                                    0               1                 1   Virginia - BPSOS                 5            NA                  5
Massachusetts                              75              60               135   Virgin Islands                   9             2                 11
Michigan - AAA                              9               0                 9   Washington - IC                 50            47                 97
Michigan - MCOP                             0             NA                  0   Washington - MSC                68            NA                 68
Minnesota                                  63               7                70   West Virginia - AARP             1             3                  4
Mississippi                                 8               3                11   Wisconsin - CWAG                 6             5                 11
Missouri                                   14               9                23   Wisconsin - GLITC                0            NA                  0
Montana                                     7               9                16   Wyoming                          0             4                  4
Nebraska                                   16              17                33

                                                                                                                                     13 

A P P E N D        I X        ~     C 



                     PERFORMANCE MEASURE 6: Number of Group Sessions for Beneficiaries Led by Volunteers
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.    Total for 2006
Alabama                                    NA              85                85   Nevada                           2             3                 5
Alaska                                     70              30               100   New Hampshire                   20            12                32
Arizona - DES                              16              23                39   New Jersey - JFVS               10             5                15
Arizona - ITZA                              5             NA                  5   New Jersey - DHP                12            NA                12
Arkansas                                   28               9                37   New Mexico                      25           140               165
California                                170            118                288   New York                        89            29               118
Colorado                                    6              62                68   North Carolina - DOI           111            21               132
Connecticut                                43              16                59   North Dakota                     6             0                 6
Delaware                                   19              25                44   Ohio - PSI                      29             8                37
District of Columbia - AARP                30              10                40   Oklahoma                        13             7                20
District of Columbia - FH                   7               3                10   Oregon - SMP                    34             0                34
Florida                                    50              56               106   Oregon - MCADS                   0            NA                 0
Georgia - ARC                             124              68               192   Pennsylvania                    77            62               139
Georgia - DHR                             136              95               231   Puerto Rico                     26            28                54
Guam                                       24              15                39   Rhode Island                     0            11                11
Hawaii                                     21               2                23   South Carolina                 134            56               190
Idaho                                     102            124                226   South Dakota                    89            11               100
Illinois                                  173              84               257   Tennessee                       20            81               101
Indiana                                   134              40               174   Texas - BBBEF                    4             3                 7
Iowa                                       89            326                415   Texas - NHCOA                  146            45               191
Kansas                                      0               0                 0   Texas - LEP                     31            NA                31
Kentucky                                  108              93               201   Utah                            64           117               181
Louisiana                                  13               6                19   Vermont                          2             1                 3
Maine                                      32              25                57   Virginia - AAA                 162            13               175
Maryland                                  172            219                391   Virginia - BPSOS                 1           NA                  1
Massachusetts                             245            199                444   Virgin Islands                  39            15                54
Michigan - AAA                             11              18                29   Washington - IC                  5            50                55
Michigan - MCOP                            17             NA                 17   Washington - MSC                41            NA                41
Minnesota                                  11              30                41   West Virginia - AARP            12            18                30
Mississippi                                79              34               113   Wisconsin - CWAG                36            72               108
Missouri                                   36              15                51   Wisconsin - GLITC                1            NA                 1
Montana                                    47              19                66   Wyoming                         10            12                22
Nebraska                                  233              46               279

                                                                                                                                     14 

A P P E N D        I X        ~     C 



              PERFORMANCE MEASURE 7: Number of Beneficiaries Who Attended Group Sessions Led by Volunteers
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June    July – Dec.      Total for 2006
Alabama                                     NA           2,940             2,940   Nevada                          117            240                357
Alaska                                   2,100           3,000             5,100   New Hampshire                 1,240            549              1,789
Arizona - DES                            2,266             904             3,170   New Jersey - JFVS               295            307                602
Arizona - ITZA                             126              NA               126   New Jersey - DHP                 64             NA                 64
Arkansas                                   892             226             1,118   New Mexico                    1,131          6,498              7,629
California                               6,389           4,096            10,485   New York                      2,769            566              3,335
Colorado                                    87           1,807             1,894   North Carolina - DOI            524            415                939
Connecticut                                951             316             1,267   North Dakota                    100               0               100
Delaware                                   625           3,250             3,875   Ohio - PSI                    1,096            415              1,511
District of Columbia - AARP              1,228             360             1,588   Oklahoma                        254            287                541
District of Columbia - FH                  104              88               192   Oregon - SMP                    450               0               450
Florida                                  6,045           6,680            12,725   Oregon - MCADS                    0             NA                  0
Georgia - ARC                            3,698           2,373             6,071   Pennsylvania                10,903           1,578             12,481
Georgia - DHR                            4,492           2,562             7,054   Puerto Rico                     927            853              1,780
Guam                                       906             347             1,253   Rhode Island                      0            369                369
Hawaii                                   1,415             550             1,965   South Carolina                2,579          1,489              4,068
Idaho                                    2,649             250             2,899   South Dakota                  2,977            322              3,299
Illinois                                 3,937           1,322             5,259   Tennessee                       335          2,565              2,900
Indiana                                  4,469             983             5,452   Texas - BBBEF                   135            130                265
Iowa                                     4,363           7,055            11,418   Texas - NHCOA                 3,735          4,189              7,924
Kansas                                       0               0                 0   Texas - LEP                   1,056             NA              1,056
Kentucky                                 3,695           4,146             7,841   Utah                          2,944          1,706              4,650
Louisiana                                  131              69               200   Vermont                          15             70                 85
Maine                                    1,800             917             2,717   Virginia - AAA                5,810            229              6,039
Maryland                                 6,201           5,013            11,214   Virginia - BPSOS                 18             NA                 18
Massachusetts                            2,000           7,545             9,545   Virgin Islands                  157            130                287
Michigan - AAA                             165           3,583             3,748   Washington - IC                  50            691                741
Michigan - MCOP                          1,677              NA             1,677   Washington - MSC                864             NA                864
Minnesota                                   81           1,179             1,260   West Virginia - AARP            876            737              1,613
Mississippi                                357             600               957   Wisconsin - CWAG              1,018          4,014              5,032
Missouri                                 3,038             389             3,427   Wisconsin - GLITC                 4             NA                  4
Montana                                    882             259             1,141   Wyoming                         120            230                350
Nebraska                                 5,344             831             6,175

                                                                                                                                         15 

A P P E N D        I X        ~     C 



            PERFORMANCE MEASURE 8: Number of One-on-One Sessions Held Between Beneficiaries and Volunteers
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June    July – Dec.      Total for 2006
Alabama                                     NA             542               542   Nevada                           58             78                136
Alaska                                      24             300               324   New Hampshire                 2,261          1,647              3,908
Arizona - DES                               12           5,552             5,564   New Jersey - JFVS                33             25                 58
Arizona - ITZA                               0              NA                 0   New Jersey - DHP                  8               0                 8
Arkansas                                   695             393             1,088   New Mexico                    9,348         16,549             25,897
California                                  36              86               122   New York                        945            645              1,590
Colorado                                   200             125               325   North Carolina - DOI            651            428              1,079
Connecticut                                265               2               267   North Dakota                     90               0                90
Delaware                                    87              16               103   Ohio - PSI                       16               1                17
District of Columbia - AARP                 10               2                12   Oklahoma                          3               2                 5
District of Columbia - FH                   11               6                17   Oregon - SMP                      0          5,362              5,362
Florida                                      9              35                44   Oregon- MCADS               12,916              NA             12,916
Georgia - ARC                              899             375             1,274   Pennsylvania                    992            113              1,105
Georgia - DHR                               86              76               162   Puerto Rico                     371            126                497
Guam                                       125             104               229   Rhode Island                      0          2,392              2,392
Hawaii                                       0               3                 3   South Carolina                4,479            783              5,262
Idaho                                    1,583              48             1,631   South Dakota                  3,016            561              3,577
Illinois                                   753               0               753   Tennessee                     6,015          3,050              9,065
Indiana                                     36             303               339   Texas - BBBEF                    10             10                 20
Iowa                                         0              11                11   Texas - NHCOA                   826            995              1,821
Kansas                                       0               0                 0   Texas - LEP                       9             NA                  9
Kentucky                                 3,898           3,509             7,407   Utah                        10,634           2,130             12,764
Louisiana                                   79              73               152   Vermont                           0               0                 0
Maine                                    3,234           1,108             4,342   Virginia - AAA                    0            133                133
Maryland                                 4,076           2,834             6,910   Virginia - BPSOS                105             NA                105
Massachusetts                          27,780           20,967            48,747   Virgin Islands                   12             10                 22
Michigan - AAA                             252              40               292   Washington - IC                 210         10,205             10,415
Michigan - MCOP                              9              NA                 9   Washington - MSC            10,500              NA             10,500
Minnesota                                   55              76               131   West Virginia - AARP              2               0                 2
Mississippi                                842           7,378             8,220   Wisconsin - CWAG                 14            197                211
Missouri                                   407             230               637   Wisconsin - GLITC                11             NA                 11
Montana                                  1,864             475             2,339   Wyoming                         879            850              1,729
Nebraska                                 1,778              83             1,861

                                                                                                                                         16 

A P P E N D        I X        ~     C 



                          PERFORMANCE MEASURE 9: Estimated Number of People Reached by Media Events
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June    July – Dec.     Total for 2006
Alabama                                    NA       7,069,411        7,069,411    Nevada                        4,500          6,000            10,500
Alaska                                663,000         663,000        1,326,000    New Hampshire              476,000         104,330           580,330
Arizona - DES                           3,500         200,000          203,500    New Jersey - JFVS        2,452,298       1,154,300        3,606,598
Arizona - ITZA                          7,834              NA             7,834   New Jersey - DHP           125,000              NA           125,000
Arkansas                            1,112,239         113,800        1,226,039    New Mexico                 234,000          66,385           300,385
California                          1,065,275       2,000,000        3,065,275    New York                   950,100         120,000        1,070,100
Colorado                               22,500         225,000          247,500    North Carolina - DOI     1,746,104       5,540,286        7,286,390
Connecticut                         1,609,881       3,640,730        5,250,611    North Dakota                98,545              25            98,570
Delaware                              441,892         375,000          816,892    Ohio - PSI                 829,531         577,307        1,406,838
District of Columbia - AARP           690,000         690,000        1,380,000    Oklahoma                      6,977        415,500           422,477
District of Columbia - FH           1,300,000       1,300,000        2,600,000    Oregon - SMP               777,325         454,071        1,231,396
Florida                             1,667,542         203,600        1,871,142    Oregon - MCADS             185,000              NA           185,000
Georgia - ARC                         574,585       2,290,285        2,864,870    Pennsylvania               510,000          61,500           571,500
Georgia - DHR                       1,603,369         310,411        1,913,780    Puerto Rico                150,000          50,000           200,000
Guam                                  440,000         400,000          840,000    Rhode Island                      0         27,000            27,000
Hawaii                                175,000         200,000          375,000    South Carolina           2,656,180         278,550        2,934,730
Idaho                                 625,000         123,400          748,400    South Dakota               741,950         918,750        1,660,700
Illinois                               47,770         257,785          305,555    Tennessee                2,272,876         843,110        3,115,986
Indiana                             1,506,675         664,258        2,170,933    Texas - BBBEF            1,750,000         700,000        2,450,000
Iowa                                  988,302       1,080,374        2,068,676    Texas - NHCOA            2,985,000         389,889        3,374,889
Kansas                                 37,350          72,036          109,386    Texas - LEP                 17,700              NA            17,700
Kentucky                            3,874,369       2,000,000        5,874,369    Utah                        16,402         519,826           536,228
Louisiana                              65,000         100,000          165,000    Vermont                     34,054         254,758           288,812
Maine                                 337,480         889,395        1,226,875    Virginia - AAA             274,548         120,000           394,548
Maryland                              184,150         435,950          620,100    Virginia - BPSOS                900             NA               900
Massachusetts                         500,000       2,572,042        3,072,042    Virgin Islands                8,400          4,000            12,400
Michigan - AAA                        220,000          96,459          316,459    Washington - IC            690,700         324,294        1,014,994
Michigan - MCOP                        23,273              NA            23,273   Washington - MSC           376,317              NA           376,317
Minnesota                                  52           2,840             2,892   West Virginia - AARP     4,917,394       1,745,547        6,662,941
Mississippi                           353,139          37,296          390,435    Wisconsin - CWAG         2,430,543       4,006,900        6,437,443
Missouri                              150,000          47,162          197,162    Wisconsin - GLITC           57,875              NA            57,875
Montana                               815,333         607,089        1,422,422    Wyoming                    100,000         200,000           300,000
Nebraska                            3,373,900     10,826,466        14,200,366

                                                                                                                                       17
A P P E N D        I X        ~     C 



               PERFORMANCE MEASURE 10: Estimated Number of People Reached by Community Education Events
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June    July – Dec.     Total for 2006
Alabama                                    NA          24,159            24,159   Nevada                        3,870          5,000             8,870
Alaska                                    506             160               666   New Hampshire                 4,290            166             4,456
Arizona - DES                           2,266           5,552             7,818   New Jersey - JFVS             1,823         24,245            26,068
Arizona - ITZA                          1,328              NA             1,328   New Jersey - DHP                341             NA               341
Arkansas                                8,663           1,495            10,158   New Mexico                    2,262          6,807             9,069
California                              4,626             712             5,338   New York                      5,646          5,108            10,754
Colorado                                  320             293               613   North Carolina - DOI        39,092           9,175            48,267
Connecticut                            21,513          12,017            33,530   North Dakota                  3,734            700             4,434
Delaware                                2,770           5,744             8,514   Ohio - PSI                      834            180             1,014
District of Columbia - AARP             4,100           4,050             8,150   Oklahoma                      3,788          2,061             5,849
District of Columbia - FH            107,800          203,064          310,864    Oregon - SMP                    891          2,182             3,073
Florida                                 8,102          13,108            21,210   Oregon - MCADS                9,253             NA             9,253
Georgia - ARC                           3,736           3,542             7,278   Pennsylvania                  1,473         12,570            14,043
Georgia - DHR                          10,824           7,835            18,659   Puerto Rico                     465          1,886             2,351
Guam                                    1,360             850             2,210   Rhode Island                      0          3,680             3,680
Hawaii                                  7,775           8,895            16,670   South Carolina              21,679           4,355            26,034
Idaho                                   2,745          82,628            85,373   South Dakota                  1,071          1,114             2,185
Illinois                                5,470          19,427            24,897   Tennessee                     7,286         13,876            21,162
Indiana                                14,710           8,985            23,695   Texas - BBBEF                 6,113          4,016            10,129
Iowa                                    5,551          13,634            19,185   Texas - NHCOA                 1,872          5,646             7,518
Kansas                                    455           4,596             5,051   Texas - LEP                     403             NA               403
Kentucky                                2,144           5,180             7,324   Utah                          4,099          2,666             6,765
Louisiana                                 181             169               350   Vermont                         733            447             1,180
Maine                                   3,303           3,045             6,348   Virginia - AAA              18,054          20,632            38,686
Maryland                                9,760          24,280            34,040   Virginia - BPSOS                205             NA               205
Massachusetts                          13,000          13,635            26,635   Virgin Islands                  300            500               800
Michigan - AAA                          4,100           9,816            13,916   Washington - IC                 400          7,476             7,876
Michigan - MCOP                             0              NA                 0   Washington - MSC           388,140              NA           388,140
Minnesota                                 201           1,732             1,933   West Virginia - AARP          5,399         18,555            23,954
Mississippi                            42,524           3,916            46,440   Wisconsin - CWAG              6,672            509             7,181
Missouri                                2,500           4,740             7,240   Wisconsin - GLITC             1,726             NA             1,726
Montana                                 3,918           1,429             5,347   Wyoming                       1,042            549             1,591
Nebraska                             316,167           15,693          331,860

                                                                                                                                       18
A P P E N D        I X        ~     C 



                         PERFORMANCE MEASURE 11: Number of Complaints Received Attributable to the Project
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June    July – Dec.      Total for 2006
Alabama                                     NA              77                77   Nevada                           45             20                 65
Alaska                                       0               2                 2   New Hampshire                   144             64                208
Arizona - DES                               12              35                47   New Jersey - JFVS                16             10                 26
Arizona - ITZA                               0              NA                 0   New Jersey - DHP                  0             NA                  0
Arkansas                                    41              58                99   New Mexico                    1,373            826              2,199
California                                  36              86               122   New York                        277             81                358
Colorado                                    28              48                76   North Carolina - DOI             56             54                110
Connecticut                                 51               7                58   North Dakota                      1               0                 1
Delaware                                     8               8                16   Ohio - PSI                       18               3                21
District of Columbia - AARP                  0              27                27   Oklahoma                          6               7                13
District of Columbia - FH                    0               0                 0   Oregon - SMP                      0             16                 16
Florida                                     22              46                68   Oregon - MCADS                   13             NA                 13
Georgia - ARC                              113              41               154   Pennsylvania                     83            120                203
Georgia - DHR                               71              74               145   Puerto Rico                      25             17                 42
Guam                                         0               0                 0   Rhode Island                      0             12                 12
Hawaii                                      23              17                40   South Carolina                   12               4                16
Idaho                                       33              48                81   South Dakota                      2               0                 2
Illinois                                    10               3                13   Tennessee                        77             37                114
Indiana                                      3               0                 3   Texas - BBBEF                     1               5                 6
Iowa                                        78              38               116   Texas - NHCOA                    30            441                471
Kansas                                      27              20                47   Texas - LEP                       7             NA                  7
Kentucky                                     0              29                29   Utah                            258            146                404
Louisiana                                    7               5                12   Vermont                          60             17                 77
Maine                                        8               4                12   Virginia - AAA                   18             43                 61
Maryland                                   548             184               732   Virginia - BPSOS                  0             NA                  0
Massachusetts                               80             537               617   Virgin Islands                    0               0                 0
Michigan - AAA                               2              40                42   Washington - IC                 296            212                508
Michigan - MCOP                              0              NA                 0   Washington - MSC                348            NA                 348
Minnesota                                1,367           1,047             2,414   West Virginia - AARP             28             27                 55
Mississippi                                381             534               915   Wisconsin - CWAG                  7             15                 22
Missouri                                    17              18                35   Wisconsin - GLITC                 0            NA                   0
Montana                                     90              44               134   Wyoming                          20             30                 50
Nebraska                                   126             143               269

                                                                                                                                         19 

A P P E N D        I X        ~     C 



                                  PERFORMANCE MEASURE 12: Number of Complaints Referred for Followup
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.    Total for 2006
Alabama                                    NA              40                40   Nevada                           4             3                 7
Alaska                                      0               2                 2   New Hampshire                    0             0                 0
Arizona - DES                               2               0                 2   New Jersey - JFVS               14             6                20
Arizona - ITZA                              0             NA                  0   New Jersey - DHP                 0            NA                 0
Arkansas                                   30              32                62   New Mexico                      52            46                98
California                                 28              31                59   New York                       166            19               185
Colorado                                   10              18                28   North Carolina - DOI             4            17                21
Connecticut                                 8               6                14   North Dakota                     1             0                 1
Delaware                                    0               5                 5   Ohio - PSI                      13             3                16
District of Columbia - AARP                 0               2                 2   Oklahoma                         2             0                 2
District of Columbia - FH                   0               0                 0   Oregon - SMP                     0             8                 8
Florida                                    10              39                49   Oregon - MCADS                  12            NA                12
Georgia - ARC                              24              24                48   Pennsylvania                     0             0                 0
Georgia - DHR                              45              16                61   Puerto Rico                     16            11                27
Guam                                        0               0                 0   Rhode Island                     0             1                 1
Hawaii                                      2               5                 7   South Carolina                  12             4                16
Idaho                                       5               4                 9   South Dakota                     2             0                 2
Illinois                                    9               1                10   Tennessee                        9            16                25
Indiana                                     0               0                 0   Texas - BBBEF                    1             5                 6
Iowa                                        7               2                 9   Texas - NHCOA                   24            82               106
Kansas                                     17              18                35   Texas - LEP                      7            NA                 7
Kentucky                                    0               1                 1   Utah                           110            86               196
Louisiana                                   1               2                 3   Vermont                          4             0                 4
Maine                                       1               0                 1   Virginia - AAA                   5             6                11
Maryland                                    2               9                11   Virginia - BPSOS                 0            NA                 0
Massachusetts                               0               0                 0   Virgin Islands                   0             0                 0
Michigan - AAA                              1               6                 7   Washington - IC                 89            34               123
Michigan - MCOP                             0             NA                  0   Washington - MSC                26            NA                26
Minnesota                               1,355            984              2,339   West Virginia - AARP            11            27                38
Mississippi                                44              29                73   Wisconsin - CWAG                 5             0                 5
Missouri                                   17              18                35   Wisconsin - GLITC                0            NA                 0
Montana                                    66              22                88   Wyoming                          0             1                 1
Nebraska                                   46            113                159

                                                                                                                                     20 

A P P E N D        I X        ~     C 



                              PERFORMANCE MEASURE 13: Number of Complaints That Resulted in Some Action
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.    Total for 2006
Alabama                                    NA              18                18   Nevada                           0             0                 0
Alaska                                      0               2                 2   New Hampshire                    0             0                 0
Arizona - DES                               0               0                 0   New Jersey - JFVS                2             1                 3
Arizona - ITZA                              0             NA                  0   New Jersey - DHP                 0            NA                 0
Arkansas                                    0              58                58   New Mexico                      17             8                25
California                                  2               3                 5   New York                        54            90               144
Colorado                                    2               5                 7   North Carolina - DOI             2            12                14
Connecticut                                 4               2                 6   North Dakota                     1             0                 1
Delaware                                    8               5                13   Ohio - PSI                       0             0                 0
District of Columbia - AARP                 0               0                 0   Oklahoma                         4             0                 4
District of Columbia - FH                   0               0                 0   Oregon - SMP                     0             0                 0
Florida                                     7              12                19   Oregon - MCADS                   6            NA                 6
Georgia - ARC                               0               0                 0   Pennsylvania                     0             0                 0
Georgia - DHR                               0               2                 2   Puerto Rico                      5             5                10
Guam                                        0               0                 0   Rhode Island                     0             1                 1
Hawaii                                      2               2                 4   South Carolina                   2             0                 2
Idaho                                       0               0                 0   South Dakota                     0             0                 0
Illinois                                   10               2                12   Tennessee                        3             3                 6
Indiana                                     0               0                 0   Texas - BBBEF                    1             1                 2
Iowa                                        5               1                 6   Texas - NHCOA                    0             0                 0
Kansas                                      3              10                13   Texas - LEP                      7            NA                 7
Kentucky                                    0               1                 1   Utah                            40            41                81
Louisiana                                   1               1                 2   Vermont                          0             0                 0
Maine                                       1               0                 1   Virginia - AAA                   5             0                 5
Maryland                                    0               1                 1   Virginia - BPSOS                 0            NA                 0
Massachusetts                               0               0                 0   Virgin Islands                   0             0                 0
Michigan - AAA                              1              32                33   Washington - IC                  0            12                12
Michigan - MCOP                             0             NA                  0   Washington - MSC                12            NA                12
Minnesota                                 627            814              1,441   West Virginia - AARP             2             9                11
Mississippi                                50            303                353   Wisconsin - CWAG                 3             0                 3
Missouri                                    0               2                 2   Wisconsin - GLITC                0            NA                 0
Montana                                    14              19                33   Wyoming                          0             0                 0
Nebraska                                   17            103                120

                                                                                                                                     21 

A P P E N D        I X        ~     C 



                          PERFORMANCE MEASURE 14: Medicare Funds Recovered Attributable to the Project
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.     Total for 2006
Alabama                                    NA              $0                $0   Nevada                          $0             $0                $0
Alaska                                     $0              $0                $0   New Hampshire                   $0             $0                $0
Arizona - DES                              $0              $0                $0   New Jersey - JFVS          $14,601           $116           $14,717
Arizona - ITZA                             $0              NA                $0   New Jersey - DHP                $0             NA                $0
Arkansas                                   $0          $1,628            $1,628   New Mexico                      $0             $0                $0
California                                 $0              $0                $0   New York                   $30,187        $14,846           $45,033
Colorado                                   $0              $0                $0   North Carolina - DOI            $0             $0                $0
Connecticut                                $0              $0                $0   North Dakota                    $0             $0                $0
Delaware                                   $0              $0                $0   Ohio - PSI                      $0             $0                $0
District of Columbia - AARP                $0              $0                $0   Oklahoma                        $0             $0                $0
District of Columbia - FH                  $0              $0                $0   Oregon - SMP                    $0             $0                $0
Florida                                $3,959         $40,380          $44,339    Oregon - MCADS                  $0             NA                $0
Georgia - ARC                              $0              $0                $0   Pennsylvania                    $0             $0                $0
Georgia - DHR                              $0              $0                $0   Puerto Rico                 $3,347            $67            $3,414
Guam                                       $0              $0                $0   Rhode Island                    $0             $0                $0
Hawaii                                     $0              $0                $0   South Carolina                  $0             $0                $0
Idaho                                      $0              $0                $0   South Dakota                    $0             $0                $0
Illinois                                   $0              $0                $0   Tennessee                     $164             $0              $164
Indiana                                    $0              $0                $0   Texas - BBBEF                 $262             $0              $262
Iowa                                       $0              $0                $0   Texas - NHCOA                   $0             $0                $0
Kansas                                     $0              $0                $0   Texas - LEP                     $0             NA                $0
Kentucky                                   $0              $0                $0   Utah                            $0             $0                $0
Louisiana                                  $0              $0                $0   Vermont                         $0             $0                $0
Maine                                      $0              $0                $0   Virginia - AAA                  $0             $0                $0
Maryland                                   $0              $0                $0   Virginia - BPSOS                $0             NA                $0
Massachusetts                              $0              $0                $0   Virgin Islands                  $0             $0                $0
Michigan - AAA                             $0              $0                $0   Washington - IC                 $0             $0                $0
Michigan - MCOP                            $0              NA                $0   Washington - MSC                $0             NA                $0
Minnesota                                $211              $0              $211   West Virginia - AARP            $0             $0                $0
Mississippi                                $0              $0                $0   Wisconsin - CWAG              $305             $0              $305
Missouri                                   $0            $519              $519   Wisconsin - GLITC               $0             NA                $0
Montana                                    $0              $0                $0   Wyoming                         $0             $0                $0
Nebraska                                   $0              $0                $0

                                                                                                                                      22 

A P P E N D        I X        ~     C 



                         PERFORMANCE MEASURE 15A: Medicaid Funds Recovered Attributable to the Project
                                  Jan. – June   July – Dec.     Total for 2006                           Jan. – June   July – Dec.     Total for 2006
Alabama                                    NA              $0                $0   Nevada                          $0             $0                $0
Alaska                                     $0              $0                $0   New Hampshire                   $0             $0                $0
Arizona - DES                              $0              $0                $0   New Jersey - JFVS               $0             $0                $0
Arizona - ITZA                             $0             NA                 $0   New Jersey - DHP                $0            NA                 $0
Arkansas                                   $0              $0                $0   New Mexico                      $0             $0                $0
California                                 $0              $0                $0   New York                        $0             $0                $0
Colorado                                   $0              $0                $0   North Carolina - DOI            $0             $0                $0
Connecticut                                $0              $0                $0   North Dakota                    $0             $0                $0
Delaware                                   $0              $0                $0   Ohio - PSI                      $0             $0                $0
District of Columbia - AARP                $0              $0                $0   Oklahoma                        $0             $0                $0
District of Columbia - FH                  $0              $0                $0   Oregon - SMP                    $0             $0                $0
Florida                                    $0              $0                $0   Oregon - MCADS                  $0            NA                 $0
Georgia - ARC                              $0              $0                $0   Pennsylvania                    $0             $0                $0
Georgia - DHR                              $0            $61                $61   Puerto Rico                     $0             $0                $0
Guam                                       $0              $0                $0   Rhode Island                    $0             $0                $0
Hawaii                                     $0              $0                $0   South Carolina                  $0             $0                $0
Idaho                                      $0              $0                $0   South Dakota                    $0             $0                $0
Illinois                                   $0              $0                $0   Tennessee                       $0             $0                $0
Indiana                                    $0              $0                $0   Texas - BBBEF                   $0             $0                $0
Iowa                                       $0              $0                $0   Texas - NHCOA                   $0             $0                $0
Kansas                                     $0              $0                $0   Texas - LEP                     $0            NA                 $0
Kentucky                                   $0              $0                $0   Utah                            $0             $0                $0
Louisiana                                  $0              $0                $0   Vermont                         $0             $0                $0
Maine                                      $0              $0                $0   Virginia - AAA                  $0             $0                $0
Maryland                                   $0              $0                $0   Virginia - BPSOS                $0            NA                 $0
Massachusetts                              $0              $0                $0   Virgin Islands                  $0             $0                $0
Michigan - AAA                             $0              $0                $0   Washington - IC                 $0             $0                $0
Michigan - MCOP                            $0             NA                 $0   Washington - MSC                $0            NA                 $0
Minnesota                                  $0              $0                $0   West Virginia - AARP            $0             $0                $0
Mississippi                                $0              $0                $0   Wisconsin - CWAG                $0             $0                $0
Missouri                                   $0              $0                $0   Wisconsin - GLITC               $0            NA                 $0
Montana                                    $0              $0                $0   Wyoming                         $0             $0                $0
Nebraska                               $1,562              $0            $1,562

                                                                                                                                      23 

A P P E N D        I X        ~    C 



                              PERFORMANCE MEASURE 15B: Savings to Beneficiaries Attributable to the Project
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June   July – Dec.       Total for 2006
Alabama                                     NA          $1,950            $1,950   Nevada                        $293             $0                $293
Alaska                                      $0              $0                $0   New Hampshire                   $0             $0                  $0
Arizona - DES                               $0              $0                $0   New Jersey - JFVS               $0             $0                  $0
Arizona - ITZA                              $0              NA                $0   New Jersey - DHP                $0             NA                  $0
Arkansas                                $1,625             $27            $1,652   New Mexico                 $79,344        $36,062           $115,406
California                                  $0              $0                $0   New York                    $1,279             $0              $1,279
Colorado                                  $745          $2,458            $3,203   North Carolina - DOI          $459             $0                $459
Connecticut                                 $0          $1,239            $1,239   North Dakota                   $29             $0                 $29
Delaware                                    $0              $0                $0   Ohio - PSI                      $0             $0                  $0
District of Columbia - AARP                 $0              $0                $0   Oklahoma                        $0             $0                  $0
District of Columbia - FH                   $0              $0                $0   Oregon - SMP                    $0             $0                  $0
Florida                                   $446            $446              $892   Oregon - MCADS                  $0             NA                  $0
Georgia - ARC                               $0              $0                $0   Pennsylvania                $8,184             $0              $8,184
Georgia - DHR                               $0              $0                $0   Puerto Rico                     $0             $0                  $0
Guam                                        $0              $0                $0   Rhode Island                    $0           $431                $431
Hawaii                                      $0              $0                $0   South Carolina                  $0             $0                  $0
Idaho                                     $438         $73,794          $74,232    South Dakota                    $0             $0                  $0
Illinois                                    $0              $0                $0   Tennessee                   $1,018        $23,121             $24,139
Indiana                                     $0              $0                $0   Texas - BBBEF                   $0             $0                  $0
Iowa                                        $0              $0                $0   Texas - NHCOA                   $0             $0                  $0
Kansas                                      $0          $2,230            $2,230   Texas - LEP                     $0             NA                  $0
Kentucky                                    $0            $253              $253   Utah                            $0        $12,244             $12,244
Louisiana                                   $0              $0                $0   Vermont                         $0         $1,212              $1,212
Maine                                       $0              $0                $0   Virginia - AAA                  $0             $0                  $0
Maryland                                    $0              $0                $0   Virginia - BPSOS                $0             NA                  $0
Massachusetts                               $0              $0                $0   Virgin Islands                  $0             $0                  $0
Michigan - AAA                            $379              $0              $379   Washington - IC             $6,179           $824              $7,003
Michigan - MCOP                             $0              NA                $0   Washington - MSC                $0             NA                  $0
Minnesota                            $115,767        $183,217          $298,984    West Virginia - AARP            $0             $0                  $0
Mississippi                                 $0              $0                $0   Wisconsin - CWAG                $0             $0                  $0
Missouri                                    $0              $0                $0   Wisconsin - GLITC               $0             NA                  $0
Montana                                 $2,500          $2,268            $4,768   Wyoming                         $0             $0                  $0
Nebraska                                    $0         $28,828          $28,828

                                                                                                                                       24 

A P P E N D        I X        ~    C 



                                    PERFORMANCE MEASURE 15C: Other Savings Attributable to the Project
                                  Jan. – June    July – Dec.     Total for 2006                           Jan. – June   July – Dec.       Total for 2006
Alabama                                    NA               $0                $0   Nevada                          $0             $0                  $0
Alaska                                      $0              $0                $0   New Hampshire                   $0             $0                  $0
Arizona - DES                               $0              $0                $0   New Jersey – JFVS               $0             $0                  $0
Arizona - ITZA                              $0             NA                 $0   New Jersey - DHP                $0            NA                   $0
Arkansas                                    $0              $0                $0   New Mexico                      $0             $0                  $0
California                                  $0              $0                $0   New York                        $0             $0                  $0
Colorado                                    $0              $0                $0   North Carolina - DOI            $0             $0                  $0
Connecticut                                 $0              $0                $0   North Dakota                    $0             $0                  $0
Delaware                                    $0              $0                $0   Ohio - PSI                      $0             $0                  $0
District of Columbia - AARP                 $0              $0                $0   Oklahoma                        $0             $0                  $0
District of Columbia - FH                   $0              $0                $0   Oregon - SMP                    $0             $0                  $0
Florida                                     $0              $0                $0   Oregon - MCADS                  $0            NA                   $0
Georgia - ARC                               $0              $0                $0   Pennsylvania                    $0             $0                  $0
Georgia - DHR                               $0              $0                $0   Puerto Rico                     $0             $0                  $0
Guam                                        $0              $0                $0   Rhode Island                    $0             $0                  $0
Hawaii                                      $0              $0                $0   South Carolina                  $0             $0                  $0
Idaho                                       $0              $0                $0   South Dakota                    $0             $0                  $0
Illinois                                    $0              $0                $0   Tennessee                       $0             $0                  $0
Indiana                                     $0              $0                $0   Texas - BBBEF                   $0             $0                  $0
Iowa                                        $0              $0                $0   Texas - NHCOA                   $0             $0                  $0
Kansas                                      $0              $0                $0   Texas - LEP                     $0            NA                   $0
Kentucky                                    $0              $0                $0   Utah                            $0             $0                  $0
Louisiana                                   $0              $0                $0   Vermont                         $0             $0                  $0
Maine                                       $0              $0                $0   Virginia - AAA                  $0             $0                  $0
Maryland                                    $0              $0                $0   Virginia - BPSOS                $0            NA                   $0
Massachusetts                               $0              $0                $0   Virgin Islands                  $0             $0                  $0
Michigan - AAA                              $0              $0                $0   Washington - IC                 $0             $0                  $0
Michigan - MCOP                             $0             NA                 $0   Washington - MSC                $0            NA                   $0
Minnesota                                   $0           $172               $172   West Virginia - AARP            $0             $0                  $0
Mississippi                                 $0            $10                $10   Wisconsin - CWAG                $0             $0                  $0
Missouri                                    $0              $0                $0   Wisconsin - GLITC               $0            NA                   $0
Montana                                     $0              $0                $0   Wyoming                         $0             $0                  $0
Nebraska                                    $0              $0                $0

                                                                                                                                       25 

   Δ       A P P E N D I X               ~     D


                                       Individual Project Results for 2006
The following tables provide the results for each performance measure for each of the 65 Senior Medicare Patrol Projects operating in
2006. Each table provides the performance measure results for the two 6-month reporting periods.

Please note that Performance Measure 9, “Estimated Number of People Reached by Media Events,” is calculated by adding the
average number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.

Eight projects closed in June 2006. These include Tribal Council of Arizona, DH/Perfil Latino TV Inc., Oregon Multnomah County
Aging and Disability Services, Texas Latino Education Project, Virginia Boat People SOS, Inc., Washington Multi-Service Center,
Wisconsin Great Lakes Inter-Tribal Council, and Monroe County Opportunity.

Additionally, Alabama Department of Senior Services began operation in July 2006.




                                                                                                                              26
A P P E N D       I X       ~     D 



                                             Alabama – Department of Senior Services, Montgomery

In operation since: July 2006                                                                Total for 2006        Jan. – June        July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    20                 NA                 20
    2        Number of new volunteers trained                                                            121                     NA                 121
    3        Number of media events conducted                                                                 60                 NA                  60
    4        Number of community education events conducted                                              251                     NA                 251
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    65                 NA                  65
    6        Number of group sessions for beneficiaries led by volunteers                                     85                 NA                  85
    7        Number of beneficiaries who attended group sessions led by volunteers                      2,940                    NA            2,940
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     542                     NA                 542
   7+8       Total number of beneficiaries educated                                                     3,482                    NA            3,482
    9        Estimated number of people reached by media events                                    7,069,411                     NA         7,069,411
    10       Estimated number of people reached by community education events                         24,159                     NA           24,159
    11       Number of complaints received attributable to the project                                        77                 NA                  77
    12       Number of complaints referred for followup                                                       40                 NA                  40
    13       Number of complaints that resulted in some action                                            18                     NA                  18
    14       Medicare funds recovered attributable to the project                                             $0                 NA                  $0
   15A       Medicaid funds recovered attributable to the project                                             $0                 NA                  $0
   15B       Savings to beneficiaries attributable to the project                                     $1,950                     NA           $1,950
   15C       Other savings attributable to the project                                                        $0                 NA                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                             $1,950                     NA           $1,950
  14 + 15    Total savings attributable to the project                                                $1,950                     NA           $1,950




                                                                                                                                       27
A P P E N D        I X       ~     D 



                                          Alaska – Alaska State Division of Senior Services, Anchorage
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 30 
                     21 
                    9

     2
       Number of new volunteers trained                                                              74 
                     51 
                   23 

     3
       Number of media events conducted                                                              50 
                      2
                    48 

     4
       Number of community education events conducted                                                    8
                    6
                     2

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 62                       3
                                                                                                                                     
9                     23
                                                                                                                                                            

     6
       Number of group sessions for beneficiaries led by volunteers                                 100 
                     70 
                   30 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      5,100                 2,100                  3,000 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      324 
                     24 
               300 

   7+8
       Total number of beneficiaries educated                                                     5,424                 2,124                  3,300 

     9
       Estimated number of people reached by media events                                     1,326,000              663,000                 663,000 

    10 
      Estimated number of people reached by community education events                             666 
                 506 
                  160 

    11 
      Number of complaints received attributable to the project                                         2
                    0                      2

    12 
      Number of complaints referred for followup                                                        2
                    0                      2

    13 
      Number of complaints that resulted in some action                                                 2
                    0                      2

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             28 

A P P E N D        I X       ~     D 



                                          Arizona – Arizona Department of Economic Security, Phoenix
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 51 
                     15 
                   36 

     2
       Number of new volunteers trained                                                              60 
                     12 
                   48 

     3
       Number of media events conducted                                                                  5
                    3
                     2

     4
       Number of community education events conducted                                                39 
                     16 
                   23 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 16                       1
                                                                                                                                     
2                     
4
     6
       Number of group sessions for beneficiaries led by volunteers                                  39 
                     16 
                   23 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      3,170                 2,266                    904 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    5,564                       12 
             5,552 

   7+8
       Total number of beneficiaries educated                                                     8,734                 2,278                  6,456 

     9
       Estimated number of people reached by media events                                      203,500                  3,500                200,000 

    10 
      Estimated number of people reached by community education events                           7,818                 2,266                  5,552 

    11 
      Number of complaints received attributable to the project                                     47 
                     12 
                   35 

    12 
      Number of complaints referred for followup                                                        2
                    2
                     0

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                        0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                        0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                        0                     $0
   15C        Other savings attributable to the project                                                     $0                        0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                        0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                        0                     $0




                                                                                                                                             29 

A P P E N D       I X       ~     D 



                                                 Arizona – Inter Tribal Council of Arizona, Phoenix
In operation since: July 2005– closed June 2006                                              Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    1                   1                  NA
    2        Number of new volunteers trained                                                                 20                  20                 NA
    3        Number of media events conducted                                                                  1                   1                 NA
    4        Number of community education events conducted                                                   29                 29                  NA

                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate                                                           NA
    5        beneficiaries                                                                                    15                  15
    6        Number of group sessions for beneficiaries led by volunteers                                      5                   5                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                       126                     126                 NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                          0                   0                  NA
   7+8       Total number of beneficiaries educated                                                      126                     126                 NA
    9        Estimated number of people reached by media events                                         7,834               7,834                    NA
    10       Estimated number of people reached by community education events                           1,328               1,328                    NA
    11       Number of complaints received attributable to the project                                         0                  0                  NA
    12       Number of complaints referred for followup                                                        0                  0                  NA
    13       Number of complaints that resulted in some action                                                0                   0                  NA
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 NA
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                 NA
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                  NA
   15C       Other savings attributable to the project                                                        $0                  $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 NA




                                                                                                                                        30
A P P E N D        I X       ~     D 



                                    Arkansas – Arkansas Division of Aging and Adult Services, Little Rock
In operation since: July 2002
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 15 
                    8
                     7

     2
       Number of new volunteers trained                                                              79 
                   43 
                   36 

     3
       Number of media events conducted                                                              75 
                   54 
                   21 

     4
       Number of community education events conducted                                               123 
                   92 
                   31 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 34                     1
                                                                                                                                   
9                     15
                                                                                                                                                          

     6
       Number of group sessions for beneficiaries led by volunteers                                  37 
                   28 
                    9

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,118                 892 
                  226 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,088                 695 
                  393 

   7+8
       Total number of beneficiaries educated                                                     2,206               1,587                    619 

     9
       Estimated number of people reached by media events                                     1,226,039           1,112,239                113,800 

    10 
      Estimated number of people reached by community education events                          10,158               8,663                  1,495 

    11 
      Number of complaints received attributable to the project                                     99 
                   41 
                   58 

    12 
      Number of complaints referred for followup                                                    62 
                   30 
                   32 

    13 
      Number of complaints that resulted in some action                                             58 
                    0                     58 

    14 
      Medicare funds recovered attributable to the project                                      $1,628                     $0              $1,628
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $1,652              $1,625                    $27
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $1,652              $1,625                    $27 

  14 + 15 
   Total savings attributable to the project                                                 $3,280              $1,625                 $1,655




                                                                                                                                           31 

A P P E N D        I X       ~     D 



                  California – California Health Insurance Counseling Advocacy Programs Association, Santa Ana
In operation since: July 1997                                                                 Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 26 
                    24 
                   2

     2
       Number of new volunteers trained                                                             345 
                   321 
                  24 

     3
       Number of media events conducted                                                              66 
                    32 
                  34 

     4
       Number of community education events conducted                                               134 
                   122 
                  12 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 11                       5
                                                                                                                                     

                    6

     6
       Number of group sessions for beneficiaries led by volunteers                                 288 
                   170 
                 118 

     7
       Number of beneficiaries who attended group sessions led by volunteers                     10,485                6,389                    4,096 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      122 
                    36 
                  86 

   7+8
       Total number of beneficiaries educated                                                    10,607                6,425                    4,182 

     9
       Estimated number of people reached by media events                                     3,065,275            1,065,275                2,000,000 

    10 
      Estimated number of people reached by community education events                           5,338                4,626                      712 

    11 
      Number of complaints received attributable to the project                                    122 
                    36 
                  86 

    12 
      Number of complaints referred for followup                                                    59 
                    28 
                  31 

    13 
      Number of complaints that resulted in some action                                                 5
                   2
                    3

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                    $0
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                    $0
   15C        Other savings attributable to the project                                                     $0                      $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                    $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                      $0                    $0




                                                                                                                                            32 

A P P E N D        I X       ~     D 



                                                 Colorado – Colorado Division of Insurance, Denver
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     8
                    4
                     4

     2
       Number of new volunteers trained                                                              48 
                     26 
                   22 

     3
       Number of media events conducted                                                                  9
                    2
                     7

     4
       Number of community education events conducted                                                    7
                    3
                     4

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                     
0                     4

     6
       Number of group sessions for beneficiaries led by volunteers                                  68 
                      6
                    62 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,894                       87 
             1,807 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      325 
                 200 
                  125 

   7+8
       Total number of beneficiaries educated                                                     2,219                   287 
                1,932 

     9
       Estimated number of people reached by media events                                      247,500                 22,500                225,000 

    10 
      Estimated number of people reached by community education events                             613 
                 320 
                  293 

    11 
      Number of complaints received attributable to the project                                     76 
                     28 
                   48 

    12 
      Number of complaints referred for followup                                                    28 
                     10 
                   18 

    13 
      Number of complaints that resulted in some action                                                 7
                    2
                     5

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $3,203                 $745                  $2,458
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $3,203                 $745                  $2,458 

  14 + 15 
   Total savings attributable to the project                                                 $3,203                 $745                  $2,458




                                                                                                                                             33 

A P P E N D        I X       ~     D 



                                      Connecticut – Connecticut Department of Social Services, Hartford
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 12 
                      7
                     5

     2
       Number of new volunteers trained                                                             192 
                     61 
                 131 

     3
       Number of media events conducted                                                              90 
                     57 
                   33 

     4
       Number of community education events conducted                                               317 
                 245 
                      72 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 39                       1
                                                                                                                                     
1                     28
                                                                                                                                                            

     6
       Number of group sessions for beneficiaries led by volunteers                                  59 
                     43 
                   16 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,267                   951 
                    316 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      267 
                 265 
                       2

   7+8
       Total number of beneficiaries educated                                                     1,534                 1,216                      318 

     9
       Estimated number of people reached by media events                                     5,250,611             1,609,881                3,640,730 

    10 
      Estimated number of people reached by community education events                          33,530                21,513                   12,017 

    11 
      Number of complaints received attributable to the project                                     58 
                     51 
                    7

    12 
      Number of complaints referred for followup                                                    14 
                      8
                     6

    13 
      Number of complaints that resulted in some action                                                 6
                    4
                     2

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $1,239                       $0                $1,239
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $1,239                       $0                $1,239 

  14 + 15 
   Total savings attributable to the project                                                 $1,239                       $0                $1,239




                                                                                                                                             34 

A P P E N D       I X       ~     D 



                                Delaware – Delaware Department of Health and Social Services, New Castle
In operation since: July 1999                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                     3                  0                   3
    2        Number of new volunteers trained                                                                 11                  0                  11
    3        Number of media events conducted                                                                 61                 54                   7
    4        Number of community education events conducted                                                   41                 13                  28
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    11                   2                  9
    6        Number of group sessions for beneficiaries led by volunteers                                     44                 19                  25
    7        Number of beneficiaries who attended group sessions led by volunteers                      3,875                    625             3,250
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     103                     87                  16
   7+8       Total number of beneficiaries educated                                                     3,978                    712             3,266
    9        Estimated number of people reached by media events                                      816,892              441,892              375,000
    10       Estimated number of people reached by community education events                           8,514               2,770                5,744
    11       Number of complaints received attributable to the project                                    16                      8                   8
    12       Number of complaints referred for followup                                                        5                  0                   5
    13       Number of complaints that resulted in some action                                            13                      8                  5
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                 $0
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                  $0
   15C       Other savings attributable to the project                                                        $0                  $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 $0




                                                                                                                                        35 

A P P E N D        I X       ~     D 



                                         District of Columbia – The AARP Foundation, Washington, DC
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     1
                    1
                     0

     2
       Number of new volunteers trained                                                                  6
                    6
                     0

     3
       Number of media events conducted                                                                  2
                    1
                     1

     4
       Number of community education events conducted                                                10 
                      6
                     4

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     5                     
3
                    2

     6
       Number of group sessions for beneficiaries led by volunteers                                  40 
                     30 
                   10 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,588                 1,228                    360 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       12 
                     10 
                    2

   7+8
       Total number of beneficiaries educated                                                     1,600                 1,238                    362 

     9
       Estimated number of people reached by media events                                     1,380,000              690,000                 690,000 

    10 
      Estimated number of people reached by community education events                           8,150                 4,100                  4,050 

    11 
      Number of complaints received attributable to the project                                     27 
                      0                     27 

    12 
      Number of complaints referred for followup                                                        2
                    0                      2

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             36 

A P P E N D        I X       ~     D 



                                             District of Columbia – Friendship House, Washington, DC
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     8
                    6
                     2

     2
       Number of new volunteers trained                                                                  5
                    2
                     3

     3
       Number of media events conducted                                                                  5
                    2
                     3

     4
       Number of community education events conducted                                                11 
                      6
                     5

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                     
2
                    2

     6
       Number of group sessions for beneficiaries led by volunteers                                  10 
                      7
                     3

     7
       Number of beneficiaries who attended group sessions led by volunteers                        192 
                 104 
                      88 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       17 
                     11 
                    6

   7+8
       Total number of beneficiaries educated                                                       209 
                 115 
                      94 

     9
       Estimated number of people reached by media events                                     2,600,000             1,300,000                1,300,000 

    10 
      Estimated number of people reached by community education events                        310,864               107,800                  203,064 

    11 
      Number of complaints received attributable to the project                                         0                     0                      0

    12 
      Number of complaints referred for followup                                                        0                     0                      0

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             37 

A P P E N D        I X       ~     D 



                                    Florida – Area Agency on Aging of Pasco Pinellas, Inc., St. Petersburg
In operation since: July 1999
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 16 
                    9
                     7

     2
       Number of new volunteers trained                                                             112 
                   22 
                   90 

     3
       Number of media events conducted                                                              32 
                   19 
                   13 

     4
       Number of community education events conducted                                               193 
               117 
                      76 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 29                     1
                                                                                                                                   
4                     15
                                                                                                                                                          

     6
       Number of group sessions for beneficiaries led by volunteers                                 106 
                   50 
                   56 

     7
       Number of beneficiaries who attended group sessions led by volunteers                     12,725               6,045                  6,680 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       44 
                    9
                    35 

   7+8
       Total number of beneficiaries educated                                                    12,769               6,054                  6,715 

     9
       Estimated number of people reached by media events                                     1,871,142           1,667,542                203,600 

    10 
      Estimated number of people reached by community education events                          21,210               8,102                 13,108 

    11 
      Number of complaints received attributable to the project                                     68 
                   22 
                   46 

    12 
      Number of complaints referred for followup                                                    49 
                   10 
                   39 

    13 
      Number of complaints that resulted in some action                                             19 
                    7
                    12 

    14 
      Medicare funds recovered attributable to the project                                    $44,339               $3,959                $40,380
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                       $892                $446                    $446
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                               $892                $446                    $446 

  14 + 15 
   Total savings attributable to the project                                               $45,231               $4,405                $40,826




                                                                                                                                           38 

A P P E N D        I X       ~     D 



                                                   Georgia – Atlanta Regional Commission, Atlanta
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     2
                    1
                     1

     2
       Number of new volunteers trained                                                                  7
                    4
                     3

     3
       Number of media events conducted                                                              23 
                     14 
                    9

     4
       Number of community education events conducted                                               157 
                     72 
                   85 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     7                     
4
                    3

     6
       Number of group sessions for beneficiaries led by volunteers                                 192 
                 124 
                      68 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      6,071                 3,698                    2,373 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,274                   899 
                    375 

   7+8
       Total number of beneficiaries educated                                                     7,345                 4,597                    2,748 

     9
       Estimated number of people reached by media events                                     2,864,870              574,585                 2,290,285 

    10 
      Estimated number of people reached by community education events                           7,278                 3,736                    3,542 

    11 
      Number of complaints received attributable to the project                                    154 
                 113 
                      41 

    12 
      Number of complaints referred for followup                                                    48 
                     24 
                   24 

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             39 

A P P E N D        I X       ~     D 



                                                Georgia – Department of Human Resources, Atlanta
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 30 
                     26 
                    4

     2
       Number of new volunteers trained                                                             121 
                 108 
                      13 

     3
       Number of media events conducted                                                             135 
                     58 
                   77 

     4
       Number of community education events conducted                                               412 
                 233 
                  179 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 49                       3
                                                                                                                                     
6                     13
                                                                                                                                                            

     6
       Number of group sessions for beneficiaries led by volunteers                                 231 
                 136 
                      95 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      7,054                 4,492                  2,562 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      162 
                     86 
                   76 

   7+8
       Total number of beneficiaries educated                                                     7,216                 4,578                  2,638 

     9
       Estimated number of people reached by media events                                     1,913,780             1,603,369                310,411 

    10 
      Estimated number of people reached by community education events                          18,659                10,824                  7,835 

    11 
      Number of complaints received attributable to the project                                    145 
                     71 
                   74 

    12 
      Number of complaints referred for followup                                                    61 
                     45 
                   16 

    13 
      Number of complaints that resulted in some action                                                 2
                    0                      2

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                         $61                       $0                 $61
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                 $61                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                    $61                       $0                 $61




                                                                                                                                             40 

A P P E N D        I X       ~     D 



                                       Guam – Department of Public Health and Social Services, Hagatna
In operation since: July 2005
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     1
                    0                      1

     2
       Number of new volunteers trained                                                              10 
                      0                     10 

     3
       Number of media events conducted                                                              12 
                      6
                     6

     4
       Number of community education events conducted                                                86 
                     36 
                   50 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     2                     
1
                    1

     6
       Number of group sessions for beneficiaries led by volunteers                                  39 
                     24 
                   15 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,253                   906 
                  347 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      229 
                 125 
                  104 

   7+8
       Total number of beneficiaries educated                                                     1,482                 1,031                    451 

     9
       Estimated number of people reached by media events                                      840,000               440,000                 400,000 

    10 
      Estimated number of people reached by community education events                           2,210                 1,360                    850 

    11 
      Number of complaints received attributable to the project                                         0                     0                      0

    12 
      Number of complaints referred for followup                                                        0                     0                      0

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             41 

A P P E N D        I X       ~     D 



                                                Hawaii – Hawaii Executive Office of Aging, Honolulu
In operation since: July 1997
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     8
                    3
                     5

     2
       Number of new volunteers trained                                                             655 
                 575 
                      80 

     3
       Number of media events conducted                                                              12 
                      7
                     5

     4
       Number of community education events conducted                                                40 
                     11 
                   29 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     3                     
0                     3

     6
       Number of group sessions for beneficiaries led by volunteers                                  23 
                     21 
                    2

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,965                 1,415                    550 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                           3
                    0                      3

   7+8
       Total number of beneficiaries educated                                                     1,968                 1,415                    553 

     9
       Estimated number of people reached by media events                                      375,000               175,000                 200,000 

    10 
      Estimated number of people reached by community education events                          16,670                 7,775                  8,895 

    11 
      Number of complaints received attributable to the project                                     40 
                     23 
                   17 

    12 
      Number of complaints referred for followup                                                        7
                    2
                     5

    13 
      Number of complaints that resulted in some action                                                 4
                    2
                     2

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             42 

A P P E N D        I X       ~     D 



                                                  Idaho – Idaho Medicare Watch Partnership, Boise
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 88 
                     84 
                    4

     2
       Number of new volunteers trained                                                              54 
                     50 
                    4

     3
       Number of media events conducted                                                              16 
                     12 
                    4

     4
       Number of community education events conducted                                               121 
                     14 
               107 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 37                       3
                                                                                                                                     
3                     
4
     6
       Number of group sessions for beneficiaries led by volunteers                                 226 
                 102 
                  124 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      2,899                 2,649                    250 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,631                 1,583                        48 

   7+8
       Total number of beneficiaries educated                                                     4,530                 4,232                    298 

     9
       Estimated number of people reached by media events                                      748,400               625,000                 123,400 

    10 
      Estimated number of people reached by community education events                          85,373                 2,745                 82,628 

    11 
      Number of complaints received attributable to the project                                     81 
                     33 
                   48 

    12 
      Number of complaints referred for followup                                                        9
                    5
                     4

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $74,232                  $438                 $73,794
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $74,232                  $438                 $73,794 

  14 + 15 
   Total savings attributable to the project                                               $74,232                  $438                 $73,794




                                                                                                                                             43 

A P P E N D        I X      ~      D 



                                                               Illinois – AgeOptions, Oak Park*

In operation since: July 1997
                                                                 Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                    17 
                   15 
                    2

     2
       Number of new volunteers trained                                                                100 
                   97 
                    3

     3
       Number of media events conducted                                                                 75 
                   41 
                   34 

     4
       Number of community education events conducted                                                  374 
                    2
                372 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                    12                      7
                                                                                                                                       

                     5

     6
       Number of group sessions for beneficiaries led by volunteers                                    257 
               173 
                      84 

     7
       Number of beneficiaries who attended group sessions led by volunteers                       5,259                 3,937                  1,322 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                         753 
               753 
                       0

   7+8
       Total number of beneficiaries educated                                                      6,012                 4,690                  1,322 

     9
       Estimated number of people reached by media events                                        305,555                47,770                257,785 

    10 
      Estimated number of people reached by community education events                           24,897                 5,470                 19,427 

    11 
      Number of complaints received attributable to the project                                        13 
                   10 
                    3

    12 
      Number of complaints referred for followup                                                       10 
                    9
                     1

    13 
      Number of complaints that resulted in some action                                                12 
                   10 
                    2

    14 
      Medicare funds recovered attributable to the project                                             $0                     $0                     $0
   15A        Medicaid funds recovered attributable to the project                                             $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                             $0                     $0                     $0
   15C        Other savings attributable to the project                                                        $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                     $0                     $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                        $0                     $0                     $0 

*Illinois AgeOptions replaced Suburban Area Agency on Aging as the Senior Medicare Patrol Project in 2006 



                                                                                                                                             44 

A P P E N D        I X       ~      D 



                                 Indiana – Indiana Division of Disability, Aging, and Rehabilitation, Indianapolis
In operation since: July 1999                                                                 Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 13 
                    11 
                   2

     2
       Number of new volunteers trained                                                              75 
                    73 
                   2

     3
       Number of media events conducted                                                              67 
                    51 
                  16 

     4
       Number of community education events conducted                                               172 
                    90 
                  82 

                                          OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 67                      6
                                                                                                                                    
5                    
2
     6
       Number of group sessions for beneficiaries led by volunteers                                 174 
                   134 
                  40 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      5,452                4,469                      983 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      339 
                    36 
                 303 

   7+8
       Total number of beneficiaries educated                                                     5,791                4,505                  1,286 

     9
       Estimated number of people reached by media events                                     2,170,933            1,506,675                664,258 

    10 
      Estimated number of people reached by community education events                          23,695               14,710                  8,985 

    11 
      Number of complaints received attributable to the project                                         3
                   3
                    0

    12 
      Number of complaints referred for followup                                                        0                    0                     0

    13 
      Number of complaints that resulted in some action                                                 0                    0                     0

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                    $0
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                    $0
   15C        Other savings attributable to the project                                                     $0                      $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                    $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                      $0                    $0




                                                                                                                                            45 

A P P E N D        I X       ~     D 



                                                  Iowa – Iowa Department of Elder Affairs, Waterloo
In operation since: July 1997
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 69 
                     16 
                   53 

     2
       Number of new volunteers trained                                                             188 
                     16 
                 172 

     3
       Number of media events conducted                                                           1,009                   554 
                    455 

     4
       Number of community education events conducted                                               204 
                 122 
                      82 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 17                       1
                                                                                                                                     
0                     
7
     6
       Number of group sessions for beneficiaries led by volunteers                                 415 
                     89 
                 326 

     7
       Number of beneficiaries who attended group sessions led by volunteers                     11,418                 4,363                    7,055 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       11 
                      0                     11 

   7+8
       Total number of beneficiaries educated                                                    11,429                 4,363                    7,066 

     9
       Estimated number of people reached by media events                                     2,068,676              988,302                 1,080,374 

    10 
      Estimated number of people reached by community education events                          19,185                 5,551                   13,634 

    11 
      Number of complaints received attributable to the project                                    116 
                     78 
                   38 

    12 
      Number of complaints referred for followup                                                        9
                    7
                     2

    13 
      Number of complaints that resulted in some action                                                 6
                    5
                     1

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             46 

A P P E N D        I X       ~     D 



                                                          Kansas – Department on Aging, Topeka
In operation since: July 2003
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     9
                    4
                     5

     2
       Number of new volunteers trained                                                             257 
                 143 
                  114 

     3
       Number of media events conducted                                                                  9
                    3
                     6

     4
       Number of community education events conducted                                                33 
                     14 
                   19 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     0                     0                      0

     6
       Number of group sessions for beneficiaries led by volunteers                                      0                     0                      0

     7
       Number of beneficiaries who attended group sessions led by volunteers                             0                     0                      0

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                           0                     0                      0

   7+8
       Total number of beneficiaries educated                                                            0                     0                      0

     9
       Estimated number of people reached by media events                                      109,386                 37,350                 72,036 

    10 
      Estimated number of people reached by community education events                           5,051                   455 
                4,596 

    11 
      Number of complaints received attributable to the project                                     47 
                     27 
                   20 

    12 
      Number of complaints referred for followup                                                    35 
                     17 
                   18 

    13 
      Number of complaints that resulted in some action                                             13 
                      3
                    10 

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $2,230                       $0              $2,230
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                 $2,230                       $0              $2,230




                                                                                                                                             47 

A P P E N D        I X       ~     D 



                                            Kentucky – Kentucky Seniors Saving Medicare, Louisville
In operation since: July 2001
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                220 
                      9
                  211 

     2
       Number of new volunteers trained                                                              41 
                     25 
                   16 

     3
       Number of media events conducted                                                             345 
                 229 
                    116 

     4
       Number of community education events conducted                                                67 
                     28 
                   39 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 33                       1
                                                                                                                                     
8                     15
                                                                                                                                                            

     6
       Number of group sessions for beneficiaries led by volunteers                                 201 
                 108 
                      93 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      7,841                 3,695                    4,146 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    7,407                 3,898                    3,509 

   7+8
       Total number of beneficiaries educated                                                    15,248                 7,593                    7,655 

     9
       Estimated number of people reached by media events                                     5,874,369             3,874,369                2,000,000 

    10 
      Estimated number of people reached by community education events                           7,324                 2,144                    5,180 

    11 
      Number of complaints received attributable to the project                                     29 
                      0                     29 

    12 
      Number of complaints referred for followup                                                        1
                    0                      1

    13 
      Number of complaints that resulted in some action                                                 1
                    0                      1

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                       $253                        $0                 $253
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                               $253                        $0                 $253 

  14 + 15 
   Total savings attributable to the project                                                  $253                        $0                 $253




                                                                                                                                             48 

A P P E N D        I X       ~     D 



                                           Louisiana – Vernon Parish Council on Aging, Inc., Leesville
In operation since: July 2000
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     5
                    2
                     3

     2
       Number of new volunteers trained                                                             114 
                     39 
                   75 

     3
       Number of media events conducted                                                              40 
                     19 
                   21 

     4
       Number of community education events conducted                                                31 
                     12 
                   19 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 16                        9
                                                                                                                                      

                     7

     6
       Number of group sessions for beneficiaries led by volunteers                                  19 
                     13 
                    6

     7
       Number of beneficiaries who attended group sessions led by volunteers                        200 
                 131 
                      69 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      152 
                     79 
                   73 

   7+8
       Total number of beneficiaries educated                                                       352 
                 210 
                  142 

     9
       Estimated number of people reached by media events                                      165,000                 65,000                100,000 

    10 
      Estimated number of people reached by community education events                             350 
                 181 
                  169 

    11 
      Number of complaints received attributable to the project                                     12 
                      7
                     5

    12 
      Number of complaints referred for followup                                                        3
                    1
                     2

    13 
      Number of complaints that resulted in some action                                                 2
                    1
                     1

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             49 

A P P E N D        I X       ~     D 



                     Maine – Maine Department of Human Services' Bureau of Elder and Adult Services, Augusta
In operation since: July 1999                                                                 Total for 2006
        Jan. – June          July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 53 
                   29 
                  24 

     2
       Number of new volunteers trained                                                              68 
                   44 
                  24 

     3
       Number of media events conducted                                                             265 
                   83 
                 182 

     4
       Number of community education events conducted                                               123 
                   80 
                  43 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 22                     1
                                                                                                                                   
3                    
9
     6
       Number of group sessions for beneficiaries led by volunteers                                  57 
                   32 
                  25 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      2,717                1,800                     917 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    4,342                3,234                 1,108 

   7+8
       Total number of beneficiaries educated                                                     7,059                5,034                 2,025 

     9
       Estimated number of people reached by media events                                     1,226,875              337,480               889,395 

    10 
      Estimated number of people reached by community education events                           6,348                3,303                 3,045 

    11 
      Number of complaints received attributable to the project                                     12 
                    8
                    4

    12 
      Number of complaints referred for followup                                                        1
                  1
                    0

    13 
      Number of complaints that resulted in some action                                                 1
                  1
                    0

    14 
      Medicare funds recovered attributable to the project                                          $0                     $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                    $0
   15B        Savings to beneficiaries attributable to the project                                          $0                     $0                    $0
   15C        Other savings attributable to the project                                                     $0                     $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                     $0                    $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                     $0                    $0




                                                                                                                                           50 

A P P E N D       I X       ~     D 



                                               Maryland – Maryland Department of Aging, Baltimore
In operation since: July 1997                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    85                  28                  57
    2        Number of new volunteers trained                                                            591                     561                 30
    3        Number of media events conducted                                                            199                      93                 106
    4        Number of community education events conducted                                                   89                  32                  57
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                     1                   0                   1
    6        Number of group sessions for beneficiaries led by volunteers                                391                     172                 219
    7        Number of beneficiaries who attended group sessions led by volunteers                    11,214                6,201                5,013
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   6,910                4,076                2,834
   7+8       Total number of beneficiaries educated                                                   18,124               10,277                7,847
    9        Estimated number of people reached by media events                                      620,100              184,150              435,950
    10       Estimated number of people reached by community education events                         34,040                9,760               24,280
    11       Number of complaints received attributable to the project                                   732                     548                 184
    12       Number of complaints referred for followup                                                       11                   2                   9
    13       Number of complaints that resulted in some action                                                1                   0                   1
    14       Medicare funds recovered attributable to the project                                             $0                  $0                  $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                  $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                  $0




                                                                                                                                        51 

A P P E N D       I X       ~     D 



                                            Massachusetts – Elder Services of Merrimack, Lawrence
In operation since: July 1999                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    10                   5                   5
    2        Number of new volunteers trained                                                            135                      75                 60
    3        Number of media events conducted                                                            320                     170                 150
    4        Number of community education events conducted                                              343                     323                 20
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               135                      75                  60
    6        Number of group sessions for beneficiaries led by volunteers                                444                     245                 199
    7        Number of beneficiaries who attended group sessions led by volunteers                      9,545               2,000               7,545
    8        Number of one-on-one sessions held between beneficiaries and volunteers                  48,747               27,780              20,967
   7+8       Total number of beneficiaries educated                                                   58,292               29,780              28,512
    9        Estimated number of people reached by media events                                    3,072,042              500,000            2,572,042
    10       Estimated number of people reached by community education events                         26,635               13,000              13,635
    11       Number of complaints received attributable to the project                                   617                      80                 537
    12       Number of complaints referred for followup                                                        0                   0                   0
    13       Number of complaints that resulted in some action                                                0                   0                   0
    14       Medicare funds recovered attributable to the project                                             $0                  $0                  $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                  $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                  $0




                                                                                                                                        52
A P P E N D        I X       ~     D 



                                    Michigan – Area Agencies on Aging Association of Michigan, Lansing
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 22 
                      2
                    20 

     2
       Number of new volunteers trained                                                              79 
                     22 
                   57 

     3
       Number of media events conducted                                                                  7
                    2
                     5

     4
       Number of community education events conducted                                                85 
                     20 
                   65 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     9                     
9
                    0

     6
       Number of group sessions for beneficiaries led by volunteers                                  29 
                     11 
                   18 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      3,748                   165 
                3,583 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      292 
                 252 
                      40 

   7+8
       Total number of beneficiaries educated                                                     4,040                   417 
                3,623 

     9
       Estimated number of people reached by media events                                      316,459               220,000                  96,459 

    10 
      Estimated number of people reached by community education events                          13,916                 4,100                  9,816 

    11 
      Number of complaints received attributable to the project                                     42 
                      2
                    40 

    12 
      Number of complaints referred for followup                                                        7
                    1
                     6

    13 
      Number of complaints that resulted in some action                                             33 
                      1
                    32 

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                       $379                  $379                         $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                               $379                  $379                         $0 

  14 + 15 
   Total savings attributable to the project                                                  $379                  $379                         $0




                                                                                                                                             53 

A P P E N D       I X       ~     D 



                                        Michigan – Monroe County Opportunity Program, Inc., Monroe
In operation since: July 2005 closed June 2006                                               Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    31                 31                  NA
    2        Number of new volunteers trained                                                                 63                 63                  NA
    3        Number of media events conducted                                                                  2                  2                  NA
    4        Number of community education events conducted                                                   58                 58                  NA
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                     0                   0                 NA
    6        Number of group sessions for beneficiaries led by volunteers                                     17                  17                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                      1,677               1,677                    NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                          9                   9                  NA
   7+8       Total number of beneficiaries educated                                                      285                     285                 NA
    9        Estimated number of people reached by media events                                       23,273               23,273                    NA
    10       Estimated number of people reached by community education events                                  0                  0                  NA
    11       Number of complaints received attributable to the project                                        0                   0                  NA
    12       Number of complaints referred for followup                                                       0                   0                  NA
    13       Number of complaints that resulted in some action                                                0                   0                  NA
    14       Medicare funds recovered attributable to the project                                             $0                 $0                  NA
   15A       Medicaid funds recovered attributable to the project                                             $0                 $0                  NA
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                  NA
   15C       Other savings attributable to the project                                                        $0                  $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 NA




                                                                                                                                        54 

A P P E N D        I X       ~     D 



                                                 Minnesota – Minnesota Board on Aging, Saint Paul
In operation since: July 1997
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 30 
                      9
                    21 

     2
       Number of new volunteers trained                                                             273 
                     91 
                182 

     3
       Number of media events conducted                                                                  6
                    3
                     3

     4
       Number of community education events conducted                                                59 
                     11 
                   48 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 70                       6
                                                                                                                                     
3                     
7
     6
       Number of group sessions for beneficiaries led by volunteers                                  41 
                     11 
                   30 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,260                       81 
              1,179 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      131 
                     55 
                   76 

   7+8
       Total number of beneficiaries educated                                                     1,391                   136 
                 1,255 

     9
       Estimated number of people reached by media events                                         2,892                       52 
              2,840 

    10 
      Estimated number of people reached by community education events                           1,933                   201 
                 1,732 

    11 
      Number of complaints received attributable to the project                                  2,414                 1,367                   1,047 

    12 
      Number of complaints referred for followup                                                 2,339                 1,355                     984 

    13 
      Number of complaints that resulted in some action                                          1,441                   627 
                   814 

    14 
      Medicare funds recovered attributable to the project                                       $211                  $211                         $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                   $298,984              $115,767                 $183,217
   15C        Other savings attributable to the project                                                  $172                        $0                 $172 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                           $299,156              $115,767                 $183,389 

  14 + 15 
   Total savings attributable to the project                                              $299,367              $115,978                 $183,389




                                                                                                                                             55 

A P P E N D        I X       ~     D 



                                      Mississippi – Mississippi Department of Human Services, Jackson
In operation since: July 2000
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     9
                    7
                     2

     2
       Number of new volunteers trained                                                              37 
                     34 
                    3

     3
       Number of media events conducted                                                             723 
                 711 
                      12 

     4
       Number of community education events conducted                                                87 
                     47 
                   40 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 11                        8
                                                                                                                                      

                     3

     6
       Number of group sessions for beneficiaries led by volunteers                                 113 
                     79 
                   34 

     7
       Number of beneficiaries who attended group sessions led by volunteers                        957 
                 357 
                  600 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    8,220                   842 
                7,378 

   7+8
       Total number of beneficiaries educated                                                     9,177                 1,199                  7,978 

     9
       Estimated number of people reached by media events                                      390,435               353,139                  37,296 

    10 
      Estimated number of people reached by community education events                          46,440                42,524                  3,916 

    11 
      Number of complaints received attributable to the project                                    915 
                 381 
                  534 

    12 
      Number of complaints referred for followup                                                    73 
                     44 
                   29 

    13 
      Number of complaints that resulted in some action                                            353 
                     50 
               303 

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             56 

A P P E N D       I X       ~     D 



                                           Missouri – District III Area Agency on Aging, Warrensburg
In operation since: July 1997                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                     5                   3                   2
    2        Number of new volunteers trained                                                                 33                  24                   9
    3        Number of media events conducted                                                                 16                  12                   4
    4        Number of community education events conducted                                                   70                  28                  42
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    23                  14                   9
    6        Number of group sessions for beneficiaries led by volunteers                                     51                  36                  15
    7        Number of beneficiaries who attended group sessions led by volunteers                      3,427               3,038                    389
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     637                     407                 230
   7+8       Total number of beneficiaries educated                                                     4,064               3,445                    619
    9        Estimated number of people reached by media events                                      197,162              150,000              47,162
    10       Estimated number of people reached by community education events                           7,240               2,500               4,740
    11       Number of complaints received attributable to the project                                        35                  17                  18
    12       Number of complaints referred for followup                                                       35                  17                  18
    13       Number of complaints that resulted in some action                                                2                   0                    2
    14       Medicare funds recovered attributable to the project                                       $519                      $0             $519
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                  $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                  $519                      $0             $519




                                                                                                                                        57 

A P P E N D        I X       ~     D 



                                                    Montana – Missoula Aging Services, Missoula
In operation since: July 1999
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 13 
                    0                     13 

     2
       Number of new volunteers trained                                                              36 
                    0                     36 

     3
       Number of media events conducted                                                             283 
               134 
                  149 

     4
       Number of community education events conducted                                               136 
                   91 
                   45 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 16                      7
                                                                                                                                    

                     9

     6
       Number of group sessions for beneficiaries led by volunteers                                  66 
                   47 
                   19 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,141                 882 
                  259 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    2,339               1,864                    475 

   7+8
       Total number of beneficiaries educated                                                     3,480               2,746                    734 

     9
       Estimated number of people reached by media events                                     1,422,422            815,333                 607,089 

    10 
      Estimated number of people reached by community education events                           5,347               3,918                  1,429 

    11 
      Number of complaints received attributable to the project                                    134 
                   90 
                   44 

    12 
      Number of complaints referred for followup                                                    88 
                   66 
                   22 

    13 
      Number of complaints that resulted in some action                                             33 
                   14 
                   19 

    14 
      Medicare funds recovered attributable to the project                                          $0                     $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $4,768              $2,500                 $2,268
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $4,768              $2,500                 $2,268 

  14 + 15 
   Total savings attributable to the project                                                 $4,768              $2,500                 $2,268




                                                                                                                                           58 

A P P E N D       I X       ~     D 



                                 Nebraska – Nebraska Department of Health and Human Services, Lincoln
In operation since: July 2000                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    12                   2                  10
    2        Number of new volunteers trained                                                                 75                  12                  63
    3        Number of media events conducted                                                                 81                  26                  55
    4        Number of community education events conducted                                              376                     216                 160
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    33                  16                  17
    6        Number of group sessions for beneficiaries led by volunteers                                279                     233                  46
    7        Number of beneficiaries who attended group sessions led by volunteers                      6,175               5,344                    831
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   1,861                1,778                     83
   7+8       Total number of beneficiaries educated                                                     8,036               7,122                    914
    9        Estimated number of people reached by media events                                   14,200,366            3,373,900          10,826,466
    10       Estimated number of people reached by community education events                        331,860              316,167               15,693
    11       Number of complaints received attributable to the project                                   269                     126                 143
    12       Number of complaints referred for followup                                                  159                      46                 113
    13       Number of complaints that resulted in some action                                           120                     17                  103
    14       Medicare funds recovered attributable to the project                                             $0                  $0                  $0
   15A       Medicaid funds recovered attributable to the project                                     $1,562               $1,562                     $0
   15B       Savings to beneficiaries attributable to the project                                    $28,828                      $0           $28,828
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $30,390               $1,562              $28,828
  14 + 15    Total savings attributable to the project                                               $30,390               $1,562              $28,828




                                                                                                                                        59 

A P P E N D        I X       ~     D 



                                              Nevada – Nevada Division of Aging Services, Las Vegas
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     0                     0                      0

     2
       Number of new volunteers trained                                                                  0                     0                      0

     3
       Number of media events conducted                                                              19 
                     15 
                    4

     4
       Number of community education events conducted                                                63 
                     35 
                   28 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     0                     0                      0

     6
       Number of group sessions for beneficiaries led by volunteers                                      5
                    2
                     3

     7
       Number of beneficiaries who attended group sessions led by volunteers                        357 
                 117 
                  240 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      136 
                     58 
                   78 

   7+8
       Total number of beneficiaries educated                                                       493 
                 175 
                  318 

     9
       Estimated number of people reached by media events                                        10,500                 4,500                  6,000 

    10 
      Estimated number of people reached by community education events                           8,870                 3,870                  5,000 

    11 
      Number of complaints received attributable to the project                                     65 
                     45 
                   20 

    12 
      Number of complaints referred for followup                                                        7
                    4
                     3

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                       $293                  $293                         $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                               $293                  $293                         $0 

  14 + 15 
   Total savings attributable to the project                                                  $293                  $293                         $0




                                                                                                                                             60 

A P P E N D       I X       ~     D 



                           New Hampshire – New Hampshire Division of Elderly and Adult Services, Concord
In operation since: July 1997                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                     4                   3                  1
    2        Number of new volunteers trained                                                                 62                 56                   6
    3        Number of media events conducted                                                                 45                  36                  9
    4        Number of community education events conducted                                                   31                  13                 18
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    76                  43                  33
    6        Number of group sessions for beneficiaries led by volunteers                                     32                  20                 12
    7        Number of beneficiaries who attended group sessions led by volunteers                      1,789               1,240                    549
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   3,908                2,261                1,647
   7+8       Total number of beneficiaries educated                                                     5,697               3,501                2,196
    9        Estimated number of people reached by media events                                      580,330              476,000              104,330
    10       Estimated number of people reached by community education events                           4,456               4,290                    166
    11       Number of complaints received attributable to the project                                   208                     144                 64
    12       Number of complaints referred for followup                                                        0                   0                  0
    13       Number of complaints that resulted in some action                                                0                   0                   0
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                 $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 $0




                                                                                                                                        61 

A P P E N D        I X       ~     D 



                          New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Edison
In operation since: July 2001                                                                 Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     4
                   3
                    1

     2
       Number of new volunteers trained                                                              26 
                    20 
                   6

     3
       Number of media events conducted                                                              40 
                    18 
                  22 

     4
       Number of community education events conducted                                               118 
                    58 
                  60 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 10                       6
                                                                                                                                     

                    4

     6
       Number of group sessions for beneficiaries led by volunteers                                  15 
                    10 
                   5

     7
       Number of beneficiaries who attended group sessions led by volunteers                        602 
                   295 
                 307 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       58 
                    33 
                  25 

   7+8
       Total number of beneficiaries educated                                                       660 
                   328 
                 332 

     9
       Estimated number of people reached by media events                                     3,606,598            2,452,298                1,154,300 

    10 
      Estimated number of people reached by community education events                          26,068                1,823                   24,245 

    11 
      Number of complaints received attributable to the project                                     26 
                    16 
                  10 

    12 
      Number of complaints referred for followup                                                    20 
                    14 
                   6

    13 
      Number of complaints that resulted in some action                                                 3
                   2
                    1

    14 
      Medicare funds recovered attributable to the project                                    $14,717               $14,601                    $116
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                    $0
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                    $0
   15C        Other savings attributable to the project                                                     $0                      $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                    $0 

  14 + 15 
   Total savings attributable to the project                                               $14,717               $14,601                    $116




                                                                                                                                            62 

A P P E N D       I X       ~     D 



                                      New Jersey – Diabeticos Hispanos/PERFIL Latino TV Inc., Millville
In operation since: July 2005 closed June 2006                                               Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    6                   6                  NA
    2        Number of new volunteers trained                                                                  4                  4                  NA
    3        Number of media events conducted                                                                 10                 10                  NA
    4        Number of community education events conducted                                                   18                 18                  NA

                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate                                                           NA
    5        beneficiaries                                                                                     3                   3
    6        Number of group sessions for beneficiaries led by volunteers                                     12                 12                  NA
    7        Number of beneficiaries who attended group sessions led by volunteers                            64                 64                  NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                          8                   8                  NA
   7+8       Total number of beneficiaries educated                                                           72                 72                  NA
    9        Estimated number of people reached by media events                                      125,000              125,000                    NA
    10       Estimated number of people reached by community education events                            341                     341                 NA
    11       Number of complaints received attributable to the project                                         0                  0                  NA
    12       Number of complaints referred for followup                                                        0                  0                  NA
    13       Number of complaints that resulted in some action                                                0                   0                  NA
    14       Medicare funds recovered attributable to the project                                             $0                 $0                  NA
   15A       Medicaid funds recovered attributable to the project                                             $0                 $0                  NA
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                  NA
   15C       Other savings attributable to the project                                                        $0                 $0                  NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                 $0                  NA
  14 + 15    Total savings attributable to the project                                                        $0                 $0                  NA




                                                                                                                                        63
A P P E N D        I X       ~      D 



                                 New Mexico – New Mexico Aging and Long Term Services Dept., Albuquerque
In operation since: July 1999                                                                 Total for 2006
      Jan. - June          July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 72 
                 30 
                  42 

     2
       Number of new volunteers trained                                                              96 
                 86 
                  10 

     3
       Number of media events conducted                                                              29 
                 15 
                  14 

     4
       Number of community education events conducted                                               200 
                 51 
                 149 

                                          OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 96                   8
                                                                                                                                 
6                    10
                                                                                                                                                       

     6
       Number of group sessions for beneficiaries led by volunteers                                 165 
                 25 
                 140 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      7,629              1,131                 6,498 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                   25,897              9,348                16,549 

   7+8
       Total number of beneficiaries educated                                                    33,526             10,479                23,047 

     9
       Estimated number of people reached by media events                                      300,385             234,000                66,385 

    10 
      Estimated number of people reached by community education events                           9,069              2,262                 6,807 

    11 
      Number of complaints received attributable to the project                                  2,199              1,373                     826 

    12 
      Number of complaints referred for followup                                                    98 
                 52 
                  46 

    13 
      Number of complaints that resulted in some action                                             25 
                 17 
                   8

    14 
      Medicare funds recovered attributable to the project                                          $0                   $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                   $0                    $0
   15B        Savings to beneficiaries attributable to the project                                   $115,406             $79,344               $36,062
   15C        Other savings attributable to the project                                                     $0                   $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                           $115,406             $79,344               $36,062 

  14 + 15 
   Total savings attributable to the project                                              $115,406             $79,344               $36,062




                                                                                                                                         64 

A P P E N D       I X       ~     D 



                                             New York – New York State Office for the Aging, Albany
In operation since: July 1997                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               112                      67                  45
    2        Number of new volunteers trained                                                           2,996               1,592                1,404
    3        Number of media events conducted                                                                 13                  10                   3
    4        Number of community education events conducted                                                   96                  66                  30
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    54                  20                  34
    6        Number of group sessions for beneficiaries led by volunteers                                118                      89                  29
    7        Number of beneficiaries who attended group sessions led by volunteers                      3,335               2,769                    566
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   1,590                     945                 645
   7+8       Total number of beneficiaries educated                                                     4,925               3,714                1,211
    9        Estimated number of people reached by media events                                    1,070,100              950,100              120,000
    10       Estimated number of people reached by community education events                         10,754                5,646                5,108
    11       Number of complaints received attributable to the project                                   358                     277                  81
    12       Number of complaints referred for followup                                                  185                     166                  19
    13       Number of complaints that resulted in some action                                           144                     54                  90
    14       Medicare funds recovered attributable to the project                                    $45,033              $30,187              $14,846
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                     $1,279               $1,279                     $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                             $1,279               $1,279                     $0
  14 + 15    Total savings attributable to the project                                               $46,312              $31,466              $14,846




                                                                                                                                        65 

A P P E N D        I X       ~     D 



                                                 North Carolina – Department of Insurance, Raleigh
In operation since: July 2003
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 10 
                    5
                     5

     2
       Number of new volunteers trained                                                              72 
                   17 
                   55 

     3
       Number of media events conducted                                                              27 
                    7
                    20 

     4
       Number of community education events conducted                                               176 
               133 
                      43 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 11                      7
                                                                                                                                    

                     4

     6
       Number of group sessions for beneficiaries led by volunteers                                 132 
               111 
                      21 

     7
       Number of beneficiaries who attended group sessions led by volunteers                        939 
               524 
                    415 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,079                 651 
                    428 

   7+8
       Total number of beneficiaries educated                                                     2,018               1,175                      843 

     9
       Estimated number of people reached by media events                                     7,286,390           1,746,104                5,540,286 

    10 
      Estimated number of people reached by community education events                          48,267              39,092                    9,175 

    11 
      Number of complaints received attributable to the project                                    110 
                   56 
                   54 

    12 
      Number of complaints referred for followup                                                    21 
                    4
                    17 

    13 
      Number of complaints that resulted in some action                                             14 
                    2
                    12 

    14 
      Medicare funds recovered attributable to the project                                          $0                     $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                       $459                $459                         $0
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                               $459                $459                         $0 

  14 + 15 
   Total savings attributable to the project                                                  $459                $459                         $0




                                                                                                                                           66 

A P P E N D        I X       ~     D 



                                                     North Dakota – Minot State University, Minot*
In operation since: July 2003                                                                  Total for 2006           Jan. – June         July – Dec.

                                          OUTPUT MEASURES

    1         Number of training sessions conducted to train new volunteers                                      2                      2                  0
    2         Number of new volunteers trained                                                                  55                     55                  0
    3         Number of media events conducted                                                                  20                     19                  1
    4         Number of community education events conducted                                                  10                       8                   2
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
    5         beneficiaries                                                                                      0                      0                   0
    6         Number of group sessions for beneficiaries led by volunteers                                       6                      6                  0
    7         Number of beneficiaries who attended group sessions led by volunteers                          100                      100                  0
    8         Number of one-on-one sessions held between beneficiaries and volunteers                         90                      90                   0
   7+8        Total number of beneficiaries educated                                                         190                      190                  0
    9         Estimated number of people reached by media events                                          98,570                98,545                    25
    10        Estimated number of people reached by community education events                             4,434                 3,734                    700
    11        Number of complaints received attributable to the project                                         1                      1                   0
    12        Number of complaints referred for followup                                                         1                      1                  0
    13        Number of complaints that resulted in some action                                                 1                      1                   0
    14        Medicare funds recovered attributable to the project                                              $0                     $0                 $0
   15A        Medicaid funds recovered attributable to the project                                              $0                     $0                  $0
   15B        Savings to beneficiaries attributable to the project                                           $29                      $29                 $0
   15C        Other savings attributable to the project                                                         $0                     $0                  $0
 TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                                   $29                      $29                 $0
  14 + 15     Total savings attributable to the project                                                      $29                      $29                  $0
*Minot State University replaced Legal Assistance of North Dakota, Inc. as the Senior Medicare Patrol Project in 2006




                                                                                                                                             67
A P P E N D        I X       ~     D 



                                                            Ohio – Pro Seniors, Inc., Cincinnati
In operation since: July 2002
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     2
                    1
                     1

     2
       Number of new volunteers trained                                                              10 
                      7
                     3

     3
       Number of media events conducted                                                             261 
                 190 
                      71 

     4
       Number of community education events conducted                                                24 
                     19 
                    5

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     1                     
0                     1

     6
       Number of group sessions for beneficiaries led by volunteers                                  37 
                     29 
                    8

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,511                 1,096                    415 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       17 
                     16 
                    1

   7+8
       Total number of beneficiaries educated                                                     1,528                 1,112                    416 

     9
       Estimated number of people reached by media events                                     1,406,838              829,531                 577,307 

    10 
      Estimated number of people reached by community education events                           1,014                   834 
                  180 

    11 
      Number of complaints received attributable to the project                                     21 
                     18 
                    3

    12 
      Number of complaints referred for followup                                                    16 
                     13 
                    3

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             68 

A P P E N D       I X       ~     D 



                                   Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
In operation since: July 1999                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                     5                  0                    5
    2        Number of new volunteers trained                                                                 55                  0                   55
    3        Number of media events conducted                                                                  4                   2                   2
    4        Number of community education events conducted                                                   30                 13                  17
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                     6                   3                   3
    6        Number of group sessions for beneficiaries led by volunteers                                     20                  13                   7
    7        Number of beneficiaries who attended group sessions led by volunteers                       541                     254                 287
    8        Number of one-on-one sessions held between beneficiaries and volunteers                          5                   3                   2
   7+8       Total number of beneficiaries educated                                                      546                     257                 289
    9        Estimated number of people reached by media events                                      422,477                6,977              415,500
    10       Estimated number of people reached by community education events                           5,849               3,788                2,061
    11       Number of complaints received attributable to the project                                    13                      6                   7
    12       Number of complaints referred for followup                                                        2                  2                    0
    13       Number of complaints that resulted in some action                                                4                   4                   0
    14       Medicare funds recovered attributable to the project                                             $0                  $0                  $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                  $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                  $0




                                                                                                                                        69 

A P P E N D       I X       ~     D 



                                                  Oregon – Senior Medicare Patrol Project, Salem
In operation since: July 1999                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    67                  0                   67
    2        Number of new volunteers trained                                                            332                      0                  332
    3        Number of media events conducted                                                                 60                  11                  49
    4        Number of community education events conducted                                              111                     53                  58
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               111                      12                  99
    6        Number of group sessions for beneficiaries led by volunteers                                     34                  34                   0
    7        Number of beneficiaries who attended group sessions led by volunteers                       450                     450                   0
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   5,362                      0             5,362
   7+8       Total number of beneficiaries educated                                                     5,812                    450            5,362
    9        Estimated number of people reached by media events                                    1,231,396              777,325             454,071
    10       Estimated number of people reached by community education events                           3,073                    891            2,182
    11       Number of complaints received attributable to the project                                    16                      0                  16
    12       Number of complaints referred for followup                                                        8                  0                    8
    13       Number of complaints that resulted in some action                                                0                   0                   0
    14       Medicare funds recovered attributable to the project                                             $0                  $0                  $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                   $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                        $0                  $0                  $0




                                                                                                                                        70
A P P E N D       I X       ~     D 



                                      Oregon – Multnomah County Aging & Disability Services, Portland
In operation since: July 2005 closed June 2006                                               Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    79                  79                 NA
    2        Number of new volunteers trained                                                            582                     582                 NA
    3        Number of media events conducted                                                                 11                  11                 NA
    4        Number of community education events conducted                                              244                     244                 NA

                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate                                                           NA
    5        beneficiaries                                                                               434                     434
    6        Number of group sessions for beneficiaries led by volunteers                                      0                   0                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                             0                   0                 NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                  12,916               12,916                    NA
   7+8       Total number of beneficiaries educated                                                   12,916               12,916                    NA
    9        Estimated number of people reached by media events                                      185,000              185,000                    NA
    10       Estimated number of people reached by community education events                           9,253               9,253                    NA
    11       Number of complaints received attributable to the project                                    13                      13                 NA
    12       Number of complaints referred for followup                                                       12                  12                 NA
    13       Number of complaints that resulted in some action                                                6                   6                  NA
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 NA
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                 NA
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                 NA
   15C       Other savings attributable to the project                                                        $0                  $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 NA




                                                                                                                                        71
A P P E N D        I X       ~     D 



                     Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
In operation since: July 1997                                                                 Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     6
                   3
                    3

     2
       Number of new volunteers trained                                                                  6
                   4
                    2

     3
       Number of media events conducted                                                              10 
                     5
                    5

     4
       Number of community education events conducted                                                54 
                    14 
                  40 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                    
2
                   2

     6
       Number of group sessions for beneficiaries led by volunteers                                 139 
                    77 
                  62 

     7
       Number of beneficiaries who attended group sessions led by volunteers                     12,481               10,903                 1,578 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,105                     992 
                 113 

   7+8
       Total number of beneficiaries educated                                                    13,586               11,895                 1,691 

     9
       Estimated number of people reached by media events                                      571,500               510,000                61,500 

    10 
      Estimated number of people reached by community education events                          14,043                1,473                12,570 

    11 
      Number of complaints received attributable to the project                                    203 
                    83 
                 120 

    12 
      Number of complaints referred for followup                                                        0                    0                     0

    13 
      Number of complaints that resulted in some action                                                 0                    0                     0

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                    $0
   15B        Savings to beneficiaries attributable to the project                                      $8,184               $8,184                       $0
   15C        Other savings attributable to the project                                                     $0                      $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $8,184               $8,184                       $0 

  14 + 15 
   Total savings attributable to the project                                                 $8,184               $8,184                       $0




                                                                                                                                            72 

A P P E N D        I X       ~     D 



                                       Puerto Rico – Office of the Ombudsman for the Elderly, San Juan
In operation since: July 1999
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     6
                    0                      6

     2
       Number of new volunteers trained                                                                  6
                    3
                     3

     3
       Number of media events conducted                                                                  5
                    3
                     2

     4
       Number of community education events conducted                                                78 
                     13 
                   65 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     3                     
0                     3

     6
       Number of group sessions for beneficiaries led by volunteers                                  54 
                     26 
                   28 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,780                   927 
                  853 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      497 
                 371 
                  126 

   7+8
       Total number of beneficiaries educated                                                     2,277                 1,298                    979 

     9
       Estimated number of people reached by media events                                      200,000               150,000                  50,000 

    10 
      Estimated number of people reached by community education events                           2,351                   465 
                1,886 

    11 
      Number of complaints received attributable to the project                                     42 
                     25 
                   17 

    12 
      Number of complaints referred for followup                                                    27 
                     16 
                   11 

    13 
      Number of complaints that resulted in some action                                             10 
                      5
                     5

    14 
      Medicare funds recovered attributable to the project                                      $3,414                $3,347                    $67
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                 $3,414                $3,347                    $67




                                                                                                                                             73 

A P P E N D        I X       ~     D 



                                                  Rhode Island – Dept. of Elderly Affairs, Cranston*
In operation since: July 2006
                                                                  Total for 2006
         Jan. – June 
       July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                       9
                    0                    9

     2
       Number of new volunteers trained                                                                 46 
                     0                   46 

     3
       Number of media events conducted                                                                    7
                    0                    7

     4
       Number of community education events conducted                                                   92 
                     0                   92 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                    44                       0
                                                                                                                                        
                   44 

     6
       Number of group sessions for beneficiaries led by volunteers                                     11 
                     0                   11 

     7
       Number of beneficiaries who attended group sessions led by volunteers                           369 
                     0               369 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       2,392                       0             2,392 

   7+8
       Total number of beneficiaries educated                                                        2,761                       0             2,761 

     9
       Estimated number of people reached by media events                                          27,000                        0            27,000 

    10 
      Estimated number of people reached by community education events                              3,680                       0             3,680 

    11 
      Number of complaints received attributable to the project                                        12 
                     0                   12 

    12 
      Number of complaints referred for followup                                                          1
                    0                    1

    13 
      Number of complaints that resulted in some action                                                   1
                    0                    1

    14 
      Medicare funds recovered attributable to the project                                             $0                       0                   $0
   15A        Medicaid funds recovered attributable to the project                                             $0                       0                   $0
   15B        Savings to beneficiaries attributable to the project                                          $431                        0              $431
   15C        Other savings attributable to the project                                                        $0                       0                   $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $431                        0              $431 

  14 + 15 
   Total savings attributable to the project                                                     $431                        0              $431 

*Rhode Island Dept. of Elderly Affairs replaced Rhode Island Aging 2000, Inc., as the Senior Medicare Patrol Project in 2006 





                                                                                                                                             74 

A P P E N D        I X       ~     D 



                                            South Carolina – Lt. Governor’s Office on Aging, Columbia
In operation since: July 2000
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 14 
                     12 
                    2

     2
       Number of new volunteers trained                                                              79 
                     73 
                    6

     3
       Number of media events conducted                                                              93 
                     44 
                   49 

     4
       Number of community education events conducted                                               124 
                     95 
                   29 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 20                       1
                                                                                                                                     
9                     
1
     6
       Number of group sessions for beneficiaries led by volunteers                                 190 
                 134 
                      56 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      4,068                 2,579                  1,489 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    5,262                 4,479                    783 

   7+8
       Total number of beneficiaries educated                                                     9,330                 7,058                  2,272 

     9
       Estimated number of people reached by media events                                     2,934,730             2,656,180                278,550 

    10 
      Estimated number of people reached by community education events                          26,034                21,679                  4,355 

    11 
      Number of complaints received attributable to the project                                     16 
                     12 
                    4

    12 
      Number of complaints referred for followup                                                    16 
                     12 
                    4

    13 
      Number of complaints that resulted in some action                                                 2
                    2
                     0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             75 

A P P E N D        I X       ~     D 



                                      South Dakota – East River Legal Services Corporation, Sioux Falls
In operation since: July 2000
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     4
                    1
                     3

     2
       Number of new volunteers trained                                                              34 
                      9
                    25 

     3
       Number of media events conducted                                                              52 
                     26 
                   26 

     4
       Number of community education events conducted                                                71 
                     39 
                   32 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 31                       2
                                                                                                                                     
4                     
7
     6
       Number of group sessions for beneficiaries led by volunteers                                 100 
                     89 
                   11 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      3,299                 2,977                    322 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    3,577                 3,016                    561 

   7+8
       Total number of beneficiaries educated                                                     6,876                 5,993                    883 

     9
       Estimated number of people reached by media events                                     1,660,700              741,950                 918,750 

    10 
      Estimated number of people reached by community education events                           2,185                 1,071                  1,114 

    11 
      Number of complaints received attributable to the project                                         2
                    2
                     0

    12 
      Number of complaints referred for followup                                                        2
                    2
                     0

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             76 

A P P E N D       I X       ~     D 



                                   Tennessee – Upper Cumberland Development District/AAA, Cookeville
In operation since: July 2001                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    36                  21                  15
    2        Number of new volunteers trained                                                            221                      99                 122
    3        Number of media events conducted                                                            209                     153                  56
    4        Number of community education events conducted                                              340                     170                 170
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    82                   9                  73
    6        Number of group sessions for beneficiaries led by volunteers                                101                      20                  81
    7        Number of beneficiaries who attended group sessions led by volunteers                      2,900                    335             2,565
    8        Number of one-on-one sessions held between beneficiaries and volunteers                   9,065                6,015                3,050
   7+8       Total number of beneficiaries educated                                                   11,965                6,350                5,615
    9        Estimated number of people reached by media events                                    3,115,986            2,272,876              843,110
    10       Estimated number of people reached by community education events                         21,162                7,286               13,876
    11       Number of complaints received attributable to the project                                   114                      77                  37
    12       Number of complaints referred for followup                                                       25                   9                  16
    13       Number of complaints that resulted in some action                                                6                   3                   3
    14       Medicare funds recovered attributable to the project                                       $164                 $164                     $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                    $24,139               $1,018              $23,121
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $24,139               $1,018              $23,121
  14 + 15    Total savings attributable to the project                                               $24,303               $1,182              $23,121




                                                                                                                                        77 

A P P E N D        I X       ~     D 



                                         Texas – Better Business Bureau Education Foundation, Houston
In operation since: July 2002
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     5
                    5
                     0

     2
       Number of new volunteers trained                                                              12 
                     12 
                    0

     3
       Number of media events conducted                                                              12 
                     10 
                    2

     4
       Number of community education events conducted                                               138 
                     80 
                   58 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 10                       1
                                                                                                                                     
0                     
0
     6
       Number of group sessions for beneficiaries led by volunteers                                      7
                    4
                     3

     7
       Number of beneficiaries who attended group sessions led by volunteers                        265 
                 135 
                  130 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       20 
                     10 
                   10 

   7+8
       Total number of beneficiaries educated                                                       285 
                 145 
                  140 

     9
       Estimated number of people reached by media events                                     2,450,000             1,750,000                700,000 

    10 
      Estimated number of people reached by community education events                          10,129                 6,113                  4,016 

    11 
      Number of complaints received attributable to the project                                         6
                    1
                     5

    12 
      Number of complaints referred for followup                                                        6
                    1
                     5

    13 
      Number of complaints that resulted in some action                                                 2
                    1
                     1

    14 
      Medicare funds recovered attributable to the project                                       $262                  $262                         $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                  $262                  $262                         $0




                                                                                                                                             78 

A P P E N D        I X       ~     D 



                                       Texas – The National Hispanic Council on Aging, Washington, DC
In operation since: July 1999
                                                                Total for 2006
       Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 86 
                    48 
                   38 

     2
       Number of new volunteers trained                                                             277 
                131 
                  146 

     3
       Number of media events conducted                                                              59 
                    49 
                   10 

     4
       Number of community education events conducted                                               176 
                    19 
               157 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                    
0                     4

     6
       Number of group sessions for beneficiaries led by volunteers                                 191 
                146 
                      45 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      7,924                3,735                  4,189 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,821                  826 
                  995 

   7+8
       Total number of beneficiaries educated                                                     9,745                4,561                  5,184 

     9
       Estimated number of people reached by media events                                     3,374,889            2,985,000                389,889 

    10 
      Estimated number of people reached by community education events                           7,518                1,872                  5,646 

    11 
      Number of complaints received attributable to the project                                    471 
                    30 
               441 

    12 
      Number of complaints referred for followup                                                   106 
                    24 
                   82 

    13 
      Number of complaints that resulted in some action                                                 0                    0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                     $0
   15C        Other savings attributable to the project                                                     $0                      $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                      $0                     $0




                                                                                                                                            79 

A P P E N D        I X       ~     D 



                                               Texas – Latino Education Project, Inc., Corpus Christi
In operation since: July 2005 closed June 2006                                                Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     2
                   2
                  NA
     2
       Number of new volunteers trained                                                                  5
                   5
                  NA
     3
       Number of media events conducted                                                              12 
                    12 
                 NA

     4
       Number of community education events conducted                                                    2
                   2
                  NA


                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                    4
                                                                                                                                     

                  NA
     6
       Number of group sessions for beneficiaries led by volunteers                                  31 
                    31 
                 NA
     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,056                1,056                      NA

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                           9
                   9
                  NA
   7+8
       Total number of beneficiaries educated                                                     1,065                1,065                      NA

     9
       Estimated number of people reached by media events                                        17,700               17,700                      NA
    10 
      Estimated number of people reached by community education events                             403 
                   403 
                 NA
    11 
      Number of complaints received attributable to the project                                         7
                   7
                  NA

    12 
      Number of complaints referred for followup                                                        7
                   7
                  NA

    13 
      Number of complaints that resulted in some action                                                 7
                   7
                  NA

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                   NA

   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                   NA
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                   NA
   15C        Other savings attributable to the project                                                     $0                      $0                   NA
 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                   NA
  14 + 15 
   Total savings attributable to the project                                                     $0                      $0                   NA




                                                                                                                                            80 

A P P E N D        I X       ~     D 



                                                          Utah – Utah Legal Services, Salt Lake City
In operation since: July 1999
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 42 
                   17 
                   25 

     2
       Number of new volunteers trained                                                              56 
                   29 
                   27 

     3
       Number of media events conducted                                                             557 
               516 
                      41 

     4
       Number of community education events conducted                                             1,045                     93 
               952 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 56                     1
                                                                                                                                   
1                     45
                                                                                                                                                          

     6
       Number of group sessions for beneficiaries led by volunteers                                 181 
                   64 
               117 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      4,650               2,944                  1,706 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                   12,764              10,634                  2,130 

   7+8
       Total number of beneficiaries educated                                                    17,414              13,578                  3,836 

     9
       Estimated number of people reached by media events                                      536,228               16,402                519,826 

    10 
      Estimated number of people reached by community education events                           6,765               4,099                  2,666 

    11 
      Number of complaints received attributable to the project                                    404 
               258 
                  146 

    12 
      Number of complaints referred for followup                                                   196 
               110 
                      86 

    13 
      Number of complaints that resulted in some action                                             81 
                   40 
                   41 

    14 
      Medicare funds recovered attributable to the project                                          $0                     $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $12,244                      $0             $12,244
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $12,244                      $0             $12,244 

  14 + 15 
   Total savings attributable to the project                                               $12,244                      $0             $12,244




                                                                                                                                           81 

A P P E N D        I X       ~     D 



                                                Vermont – Community of Vermont Elders, Montpelier
In operation since: July 2003
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     0                     0                      0

     2
       Number of new volunteers trained                                                                  0                     0                      0

     3
       Number of media events conducted                                                           1,155                 1,141                        14 

     4
       Number of community education events conducted                                                43 
                     32 
                   11 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     0                     0                      0

     6
       Number of group sessions for beneficiaries led by volunteers                                      3
                    2
                     1

     7
       Number of beneficiaries who attended group sessions led by volunteers                         85 
                     15 
                   70 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                           0                     0                      0

   7+8
       Total number of beneficiaries educated                                                        85 
                     15 
                   70 

     9
       Estimated number of people reached by media events                                      288,812                 34,054                254,758 

    10 
      Estimated number of people reached by community education events                           1,180                   733 
                  447 

    11 
      Number of complaints received attributable to the project                                     77 
                     60 
                   17 

    12 
      Number of complaints referred for followup                                                        4
                    4
                     0

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $1,212                       $0              $1,212
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $1,212                       $0              $1,212 

  14 + 15 
   Total savings attributable to the project                                                 $1,212                       $0              $1,212




                                                                                                                                             82 

A P P E N D        I X       ~     D 



                                     Virginia – Virginia Association of Area Agencies on Aging, Richmond
In operation since: July 1999 
                                                               Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     3
                    3
                     0

     2
       Number of new volunteers trained                                                              26 
                      4
                    22 

     3
       Number of media events conducted                                                              28 
                     14 
                   14 

     4
       Number of community education events conducted                                               444 
                 248 
                  196 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 10                        0
                                                                                                                                      
                     10
     6
       Number of group sessions for beneficiaries led by volunteers                                 175 
                 162 
                      13 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      6,039                 5,810                    229 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                      133 
                      0                 133 

   7+8
       Total number of beneficiaries educated                                                     6,172                 5,810                    362 

     9
       Estimated number of people reached by media events                                      394,548               274,548                 120,000 

    10 
      Estimated number of people reached by community education events                          38,686                18,054                 20,632 

    11 
      Number of complaints received attributable to the project                                     61 
                     18 
                   43 

    12 
      Number of complaints referred for followup                                                    11 
                      5
                     6

    13 
      Number of complaints that resulted in some action                                                 5
                    5
                     0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             83 

A P P E N D       I X       ~     D


                                                   Virginia – Boat People S.O.S, Inc., Falls Church
In operation since: July 2005 closed June 2006                                               Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    8                    8                 NA
    2        Number of new volunteers trained                                                                 15                  15                 NA
    3        Number of media events conducted                                                                  1                   1                 NA
    4        Number of community education events conducted                                                   5                    5                 NA

                                       OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate                                                           NA
    5        beneficiaries                                                                                     5                   5
    6        Number of group sessions for beneficiaries led by volunteers                                      1                   1                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                            18                  18                 NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     105                     105                 NA
   7+8       Total number of beneficiaries educated                                                      123                     123                 NA
    9        Estimated number of people reached by media events                                          900                     900                 NA
    10       Estimated number of people reached by community education events                            205                     205                 NA
    11       Number of complaints received attributable to the project                                         0                   0                 NA
    12       Number of complaints referred for followup                                                        0                   0                 NA
    13       Number of complaints that resulted in some action                                                0                   0                  NA
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 NA
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                 NA
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                 NA
   15C       Other savings attributable to the project                                                        $0                  $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 NA




                                                                                                                                        84
A P P E N D        I X       ~     D 



                       Virgin Islands – Dept. of Human Services, Senior Citizens Affairs, Christiansted, St. Croix
In operation since: July 2005                                                                 Total for 2006
        Jan. – June           July – Dec.

                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     3
                   2
                    1

     2
       Number of new volunteers trained                                                              22 
                    18 
                   4

     3
       Number of media events conducted                                                             410 
                   402 
                   8

     4
       Number of community education events conducted                                                    8
                   5
                    3

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 11                       9
                                                                                                                                     

                    2

     6
       Number of group sessions for beneficiaries led by volunteers                                  54 
                    39 
                  15 

     7
       Number of beneficiaries who attended group sessions led by volunteers                        287 
                   157 
                 130 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                       22 
                    12 
                  10 

   7+8
       Total number of beneficiaries educated                                                       309 
                   169 
                 140 

     9
       Estimated number of people reached by media events                                        12,400                8,400                 4,000 

    10 
      Estimated number of people reached by community education events                             800 
                   300 
                 500 

    11 
      Number of complaints received attributable to the project                                         0                    0                     0

    12 
      Number of complaints referred for followup                                                        0                    0                     0

    13 
      Number of complaints that resulted in some action                                                 0                    0                     0

    14 
      Medicare funds recovered attributable to the project                                          $0                      $0                    $0
   15A        Medicaid funds recovered attributable to the project                                          $0                      $0                    $0
   15B        Savings to beneficiaries attributable to the project                                          $0                      $0                    $0
   15C        Other savings attributable to the project                                                     $0                      $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                      $0                    $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                      $0                    $0




                                                                                                                                            85 

A P P E N D        I X       ~     D 



                                            Washington – Office of the Insurance Counselor, Olympia
In operation since: July 1999
                                                                Total for 2006
      Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                 54 
                    4
                    50 

     2
       Number of new volunteers trained                                                             129 
                   50 
                   79 

     3
       Number of media events conducted                                                              88 
                    4
                    84 

     4
       Number of community education events conducted                                               129 
                    8
                121 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                 97                     5
                                                                                                                                   
0                     47
                                                                                                                                                          

     6
       Number of group sessions for beneficiaries led by volunteers                                  55 
                    5
                    50 

     7
       Number of beneficiaries who attended group sessions led by volunteers                        741 
                   50 
               691 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                   10,415                 210 
               10,205 

   7+8
       Total number of beneficiaries educated                                                    11,156                 260 
               10,896 

     9
       Estimated number of people reached by media events                                     1,014,994            690,700                 324,294 

    10 
      Estimated number of people reached by community education events                           7,876                 400 
                7,476 

    11 
      Number of complaints received attributable to the project                                    508 
               296 
                  212 

    12 
      Number of complaints referred for followup                                                   123 
                   89 
                   34 

    13 
      Number of complaints that resulted in some action                                             12 
                    0                     12 

    14 
      Medicare funds recovered attributable to the project                                          $0                     $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                     $0                     $0
   15B        Savings to beneficiaries attributable to the project                                      $7,003              $6,179                   $824
   15C        Other savings attributable to the project                                                     $0                     $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                              $7,003              $6,179                   $824 

  14 + 15 
   Total savings attributable to the project                                                 $7,003              $6,179                   $824




                                                                                                                                           86 

A P P E N D       I X       ~     D 



                                                  Washington – Multi-Service Center, Federal Way
In operation since: July 2005 closed June 2006                                               Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               186                     186                 NA
    2        Number of new volunteers trained                                                                 81                  81                 NA
    3        Number of media events conducted                                                                 89                  89                 NA
    4        Number of community education events conducted                                              536                     536                 NA
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    68                  68                 NA
    6        Number of group sessions for beneficiaries led by volunteers                                     41                  41                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                       864                     864                 NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                  10,500               10,500                    NA
   7+8       Total number of beneficiaries educated                                                   11,364               11,364                    NA
    9        Estimated number of people reached by media events                                      376,317              376,317                    NA
    10       Estimated number of people reached by community education events                        388,140              388,140                    NA
    11       Number of complaints received attributable to the project                                   348                     348                 NA
    12       Number of complaints referred for followup                                                       26                  26                 NA
    13       Number of complaints that resulted in some action                                            12                      12                 NA
    14       Medicare funds recovered attributable to the project                                             $0                  $0                 NA
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                 NA
   15B       Savings to beneficiaries attributable to the project                                             $0                  $0                 NA
   15C       Other savings attributable to the project                                                        $0                  $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                  $0                 NA




                                                                                                                                        87
A P P E N D        I X       ~     D 



                                                    West Virginia – AARP Foundation, Charleston
In operation since: July 2003
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     6
                    3
                     3

     2
       Number of new volunteers trained                                                                  8
                    4
                     4

     3
       Number of media events conducted                                                             167 
                     36 
                 131 

     4
       Number of community education events conducted                                                66 
                     31 
                   35 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                     
1
                    3

     6
       Number of group sessions for beneficiaries led by volunteers                                  30 
                     12 
                   18 

     7
       Number of beneficiaries who attended group sessions led by volunteers                      1,613                   876 
                    737 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                           2
                    2
                     0

   7+8
       Total number of beneficiaries educated                                                     1,615                   878 
                    737 

     9
       Estimated number of people reached by media events                                     6,662,941             4,917,394                1,745,547 

    10 
      Estimated number of people reached by community education events                          23,954                 5,399                   18,555 

    11 
      Number of complaints received attributable to the project                                     55 
                     28 
                   27 

    12 
      Number of complaints referred for followup                                                    38 
                     11 
                   27 

    13 
      Number of complaints that resulted in some action                                             11 
                      2
                     9

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0




                                                                                                                                             88 

A P P E N D       I X       ~     D 



                                          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
In operation since: July 1997                                                                Total for 2006        Jan. – June         July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    10                  6                    4
    2        Number of new volunteers trained                                                                 79                 57                   22
    3        Number of media events conducted                                                           1,542                    330              1,212
    4        Number of community education events conducted                                                   75                 65                   10
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                    11                   6                   5
    6        Number of group sessions for beneficiaries led by volunteers                                108                     36                   72
    7        Number of beneficiaries who attended group sessions led by volunteers                      5,032               1,018                 4,014
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     211                     14                  197
   7+8       Total number of beneficiaries educated                                                     5,243               1,032                 4,211
    9        Estimated number of people reached by media events                                    6,437,443            2,430,543              4,006,900
    10       Estimated number of people reached by community education events                           7,181               6,672                    509
    11       Number of complaints received attributable to the project                                    22                      7                   15
    12       Number of complaints referred for followup                                                        5                  5                    0
    13       Number of complaints that resulted in some action                                                3                   3                    0
    14       Medicare funds recovered attributable to the project                                       $305                 $305                     $0
   15A       Medicaid funds recovered attributable to the project                                             $0                  $0                  $0
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                   $0
   15C       Other savings attributable to the project                                                        $0                  $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                  $0                  $0
  14 + 15    Total savings attributable to the project                                                  $305                 $305                     $0




                                                                                                                                        89 

A P P E N D       I X       ~     D 



                                        Wisconsin – Great Lakes Inter-Tribal Council, Lac du Flambeau
In operation since: July 1997 closed June 2006                                               Total for 2006        Jan. – June        July – Dec.

                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                    2                   2                 NA
    2        Number of new volunteers trained                                                                 42                 42                 NA
    3        Number of media events conducted                                                                 10                 10                 NA
    4        Number of community education events conducted                                                   25                 25                 NA

                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate                                                          NA
    5        beneficiaries                                                                                     0                  0
    6        Number of group sessions for beneficiaries led by volunteers                                      1                  1                 NA
    7        Number of beneficiaries who attended group sessions led by volunteers                             4                  4                 NA
    8        Number of one-on-one sessions held between beneficiaries and volunteers                      11                     11                 NA
   7+8       Total number of beneficiaries educated                                                           15                 15                 NA
    9        Estimated number of people reached by media events                                       57,875               57,875                   NA
    10       Estimated number of people reached by community education events                           1,726               1,726                   NA
    11       Number of complaints received attributable to the project                                         0                  0                 NA
    12       Number of complaints referred for followup                                                        0                  0                 NA
    13       Number of complaints that resulted in some action                                                0                  0                  NA
    14       Medicare funds recovered attributable to the project                                             $0                 $0                 NA
   15A       Medicaid funds recovered attributable to the project                                             $0                 $0                 NA
   15B       Savings to beneficiaries attributable to the project                                             $0                 $0                 NA
   15C       Other savings attributable to the project                                                        $0                 $0                 NA
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                                     $0                 $0                 NA
  14 + 15    Total savings attributable to the project                                                        $0                 $0                 NA




                                                                                                                                       90
A P P E N D        I X       ~     D 



                                                          Wyoming – Senior Citizens, Inc., Riverton
In operation since: July 2000
                                                                Total for 2006
        Jan. – June 
          July – Dec. 


                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                                     2
                    0                      2

     2
       Number of new volunteers trained                                                              16 
                      0                     16 

     3
       Number of media events conducted                                                              26 
                     14 
                   12 

     4
       Number of community education events conducted                                                36 
                     13 
                   23 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                                     4                     
0                     4

     6
       Number of group sessions for beneficiaries led by volunteers                                  22 
                     10 
                   12 

     7
       Number of beneficiaries who attended group sessions led by volunteers                        350 
                 120 
                  230 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                    1,729                   879 
                  850 

   7+8
       Total number of beneficiaries educated                                                     2,079                   999 
                1,080 

     9
       Estimated number of people reached by media events                                      300,000               100,000                 200,000 

    10 
      Estimated number of people reached by community education events                           1,591                 1,042                    549 

    11 
      Number of complaints received attributable to the project                                     50 
                     20 
                   30 

    12 
      Number of complaints referred for followup                                                        1
                    0                      1

    13 
      Number of complaints that resulted in some action                                                 0                     0                      0

    14 
      Medicare funds recovered attributable to the project                                          $0                       $0                     $0
   15A        Medicaid funds recovered attributable to the project                                          $0                       $0                     $0
   15B        Savings to beneficiaries attributable to the project                                          $0                       $0                     $0
   15C        Other savings attributable to the project                                                     $0                       $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                                  $0                       $0                     $0 

  14 + 15 
   Total savings attributable to the project                                                     $0                       $0                     $0 

*Wyoming Senior Citizens, Inc. replaced Wyoming Division on Aging as the Senior Medicare Patrol Project in 2006 





                                                                                                                                             91 

